<html>
<title> - [H.A.S.C.  No. 114-29]- Countering Weapons of Mass Destruction Strategy And The Fiscal Year 2016</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                        [H.A.S.C. No. 114-29]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2016

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

       SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES HEARING

                                   ON

                 COUNTERING WEAPONS OF MASS DESTRUCTION

                   STRATEGY AND THE FISCAL YEAR 2016

                 NATIONAL DEFENSE AUTHORIZATION BUDGET

                     REQUEST FOR THE DEFENSE THREAT

                     REDUCTION AGENCY AND CHEMICAL

                       BIOLOGICAL DEFENSE PROGRAM

                               __________

                              HEARING HELD
                             MARCH 25, 2015

                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
                                     
                                  ___________
                                
                     
                     
                     U.S. GOVERNMENT PUBLISHING OFFICE
94-231                    WASHINGTON : 2015
_____________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="84e3f4ebc4e7f1f7f0ece1e8f4aae7ebe9aa">[email&#160;protected]</a>  
                                     



                     


           SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES

                  JOE WILSON, South Carolina, Chairman

JOHN KLINE, Minnesota                JAMES R. LANGEVIN, Rhode Island
BILL SHUSTER, Pennsylvania           JIM COOPER, Tennessee
DUNCAN HUNTER, California            JOHN GARAMENDI, California
RICHARD B. NUGENT, Florida           JOAQUIN CASTRO, Texas
RYAN K. ZINKE, Montana               MARC A. VEASEY, Texas
TRENT FRANKS, Arizona, Vice Chair    DONALD NORCROSS, New Jersey
DOUG LAMBORN, Colorado               BRAD ASHFORD, Nebraska
MO BROOKS, Alabama                   PETE AGUILAR, California
BRADLEY BYRNE, Alabama
ELISE M. STEFANIK, New York
                Peter Villano, Professional Staff Member
              Lindsay Kavanaugh, Professional Staff Member
                          Julie Herbert, Clerk
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Langevin, Hon. James R., a Representative from Rhode Island, 
  Ranking Member, Subcommittee on Emerging Threats and 
  Capabilities...................................................     2
Wilson, Hon. Joe, a Representative from South Carolina, Chairman, 
  Subcommittee on Emerging Threats and Capabilities..............     1

                               WITNESSES

Bryce, Douglas W., Deputy Joint Program Executive Officer for 
  Chemical and Biological Defense................................     7
Burnham, John, Deputy Assistant Secretary of Defense for Threat 
  Reduction and Arms Control.....................................     5
Hassell, Dr. Chris, Deputy Assistant Secretary of Defense for 
  Chemical and Biological Defense................................     4
Myers, Kenneth A., III, Director, Defense Threat Reduction Agency 
  and U.S. Strategic Command Center for Combating Weapons of Mass 
  Destruction....................................................     6
Rosenbach, Eric, Assistant Secretary of Defense for Homeland 
  Defense and Global Security....................................     3

 
                                APPENDIX

Prepared Statements:

    Bryce, Douglas W.............................................    62
    Burnham, John................................................    38
    Hassell, Dr. Chris...........................................    29
    Myers, Kenneth A., III.......................................    45
    Rosenbach, Eric..............................................    17

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Ashford..................................................    90
    Mr. Franks...................................................    85
    Mr. Hunter...................................................    89
    Mr. Wilson...................................................    75
                 COUNTERING WEAPONS OF MASS DESTRUCTION

               STRATEGY AND THE FISCAL YEAR 2016 NATIONAL

                DEFENSE AUTHORIZATION BUDGET REQUEST FOR

                THE DEFENSE THREAT REDUCTION AGENCY AND

                  CHEMICAL BIOLOGICAL DEFENSE PROGRAM

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
         Subcommittee on Emerging Threats and Capabilities,
                         Washington, DC, Wednesday, March 25, 2015.
    The subcommittee met, pursuant to call, at 3:34 p.m., in 
room 2118, Rayburn House Office Building, Hon. Joe Wilson 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM 
SOUTH CAROLINA, CHAIRMAN, SUBCOMMITTEE ON EMERGING THREATS AND 
                          CAPABIITIES

    Mr. Wilson. Ladies and gentlemen, I call this hearing of 
the Emerging Threats and Capabilities Subcommittee of the House 
Armed Services Committee to order. I am pleased to welcome 
everyone here today for this very important and timely hearing 
on countering weapons of mass destruction and the fiscal year 
2016 budget request for the Defense Threat Reduction Agency 
[DTRA] and the Chemical Biological Defense Program [CBDP].
    The proliferation and potential use of weapons of mass 
destruction [WMD] remain a grave and enduring threat. Indeed, 
as the Director of National Intelligence James Clapper in his 
recent worldwide threat assessment before Congress said that 
``the time when only a few states had access to the most 
dangerous technologies is past. Biological and chemical 
materials and technologies, almost always dual use, move easily 
in the globalized economy, as do personnel with the scientific 
expertise to design them.''
    And today as we sit at this hearing I am reminded that the 
unfortunate recent and continued use of chemical weapons in 
Syria shows us that state sponsors of weapons of mass 
destruction not only seek these capabilities, but use these 
capabilities.
    The entire Department of Defense [DOD] countering weapons 
of mass destruction enterprise has played a central and 
critical role in our national defense over the past year; from 
the destruction of more than 650 tons of Syrian and Libyan 
chemical weapons and the precursors to the mitigation of the 
Ebola outbreak, which began in remote areas of Africa. And even 
the cleanup and destruction of our own chemical weapons 
stockpiles in accordance with our treaty obligations.
    Despite these successes, we remain increasingly concerned 
about the interconnections between terrorism, non-state actors, 
and weapons of mass destruction technologies and capabilities. 
Degrading, disrupting, and mitigating these weapons of mass 
destruction pathways and the capabilities at their point of 
origin further upstream, and far, far away from American shores 
and our fellow citizens, must be our central strategic aim.
    And while I am pleased to see that the 2014 Department of 
Defense Strategy for Countering Weapons of Mass Destruction 
[CWMD] places emphasis on this upstream approach, I remain 
concerned that we have not properly resourced the Department, 
and indeed the entire interagency, amidst dwindling budgets, 
competing priorities, and the pressures of defense 
sequestration.
    So today we look forward to discussing the priorities for 
the Department of Defense to counter weapons of mass 
destruction for fiscal year 2016. We have before us a panel of 
five very distinguished witnesses.
    Mr. Eric Rosenbach, the Assistant Secretary of Defense for 
Homeland Defense and Global Security; Dr. Chris Hassell, the 
Deputy Assistant Secretary of Defense for Chemical and 
Biological Defense; Mr. John Burnham, the Deputy Assistant 
Secretary of Defense for Threat Reduction and Arms Control; Mr. 
Ken Myers, the Director of Defense Threat Reduction Agency, and 
also the Director of the Strategic Command Center for Combating 
Weapons of Mass Destruction; and Mr. Doug Bryce, the Deputy 
Director of the Joint Program Executive Office for Chemical and 
Biological Defense.
    And as so appropriate, and it is just a miracle that he is 
appearing, but I now get to introduce and put on the spot 
immediately, and giving him time to get to his place, my friend 
and ranking member, Mr. Jim Langevin, from the beautiful State 
of Rhode Island, for any comments that he would like to make as 
he is now opening his book. But he has already read all this 
and so he is fully prepared.
    [Laughter.]

  STATEMENT OF HON. JAMES R. LANGEVIN, A REPRESENTATIVE FROM 
RHODE ISLAND, RANKING MEMBER, SUBCOMMITTEE ON EMERGING THREATS 
                        AND CAPABILITIES

    Mr. Langevin. And ready to go, Mr. Chairman. Thank you very 
much. And I apologize for the delay. I had a constituent 
meeting in my office that ran over.
    I apologize to our witnesses. But thank you all for being 
here. It is great to see everyone again, familiar faces. And I 
do want to thank you for appearing before the subcommittee 
today to discuss the Department of Defense's countering weapons 
of mass destruction strategy and the fiscal year 2016 budget 
request.
    Now, in May of last year the Chairman of Joint Chiefs of 
Staff, General Dempsey, signed a letter of endorsement for the 
Department's updated Strategy for CWMD released in June 2014. 
And the letter began by stating, ``the U.S. faces threats from 
state and non-state actors that seek to develop, proliferate, 
acquire or use WMD.''
    Like Chairman Dempsey, I am sure the other members--I am 
sure that the other members of the committee, I believe the 
proliferation use of weapons of mass destruction threatens our 
troops overseas, our regional partners, and innocent civilians.
    As the Ebola outbreak demonstrated, understanding it was 
not employed by an actor, weapons of mass destruction threaten 
the homeland, too. Preventing acquisition, development, and the 
use of these weapons obviously is crucial. I am therefore 
pleased that the CWMD strategy places greater emphasis on a 
provocative upstream approach to countering weapons of mass 
destruction.
    However, CWMD is not just the responsibility of the 
Department of Defense. The Department's upstream approach will 
require a whole-of-government approach, most specifically 
regarding the two priority objectives of reducing incentives to 
pursue, possess, and deploy WMD, and increasing barriers to the 
acquisition, proliferation, and the use of WMD.
    I look forward to hearing from our witnesses how the CWMD 
strategy released in June 2014 will coordinate with other 
strategies, including the Department of State. Additionally I 
look forward to understanding the other components of the CWMD 
strategy and how the fiscal year 2016 budget request supports 
the priorities and objectives.
    As a longtime advocate of STEM [science, technology, 
engineering, and mathematics] education and our science and 
technology workforce, I am especially interested in how the 
foundational activity of maintaining and sustaining technical 
expertise is being executed.
    With that, finally I want to express my appreciation to the 
witnesses for their work in Syria, Ukraine, Jordan, Lebanon, 
and countless other places around the globe to protect our 
Nation, our partners, and our troops from the destruction 
caused by WMD. Thank you.
    Mr. Chairman, I look forward to today's discussion. I yield 
back.
    Mr. Wilson. Thank you, Mr. Langevin. And we will now 
proceed.
    Assistant Secretary Rosenbach, we will begin with you. And 
then we will proceed. And we are under like a--when it is a 5-
minute rule, if it is less that is fine. And a challenge that 
we have is that there could be votes. But hey, we are here.
    We are so appreciative of your being here. Thank you.

STATEMENT OF ERIC ROSENBACH, ASSISTANT SECRETARY OF DEFENSE FOR 
              HOMELAND DEFENSE AND GLOBAL SECURITY

    Mr. Rosenbach. Thank you very much, Mr. Chairman. Thank 
you, Ranking Member Langevin, and all the other members of the 
subcommittee. We appreciate the opportunity to talk today about 
the strategy we have in place for mitigating the threat of 
weapons of mass destruction. And I am very honored to be with 
the team here from DOD to work on these things.
    I would like also to thank your staff. They have done a 
good job in setting up a constructive hearing and we appreciate 
that a lot.
    For reasons of time we will all be very short and submit 
our written testimony for the record. And I would just say a 
couple things very briefly so that we can get down to your 
questions.
    You know the state of the world today makes it increasingly 
likely that either a state or a non-state actor could use a 
weapon of mass destruction. When you think about the way the 
world is interconnected, also the ability of these actors to 
get technology that could be very destructive. And so with that 
in mind, it literally is the top priority of DOD and the U.S. 
Government to try to prevent an attack like this from 
happening.
    With that in mind, we moved forward with a new strategy to 
try to mitigate the risk of that. And luckily we have already 
had some successes over the past couple years in things related 
to WMD. So as you know, in the strategy we are essentially 
working on three no's, right. It is a whole-of-government 
strategy and we want to ensure that there is no additional 
state that gets--or non-state actors that get WMD.
    Those possessing WMD are not able to use them, and if they 
are used, that the effects are not very bad. So it is the three 
negatives that we are looking for to try to mitigate the risk.
    As you mentioned, both of you all in your opening 
statement, the strategy is to try to think more preemptively 
about this, more upstream. So first we want to try to prevent 
actors from getting access to weapons of mass destruction.
    Then if they do, we want to be able to contain and reduce 
the threats both to our military and of course to the Nation. 
And we have had some success in this. And finally that we have 
the ability to respond, and Ebola is a good case where 
something has already broken out and we mitigate the risk both 
to the country and to the military for the threat from that.
    So I think at this point, Mr. Chairman, I will conclude my 
statement and pass it on to the other witnesses or be open to 
your questions.
    [The prepared statement of Mr. Rosenbach can be found in 
the Appendix on page 17.]
    Mr. Wilson. Thank you very much, Secretary Rosenbach.
    And what we will do is proceed and then go to questions. 
And we are very fortunate that Pete Villano is going to keep 
the elected officials in line and within the 5 minutes.
    Dr. Hassell.

 STATEMENT OF DR. CHRIS HASSELL, DEPUTY ASSISTANT SECRETARY OF 
          DEFENSE FOR CHEMICAL AND BIOLOGICAL DEFENSE

    Dr. Hassell. Thank you. Thank you, Chairman Wilson and 
Ranking Member Langevin and all the members of the committee. I 
also appreciate the opportunity to be here and share your 
passion for this issue.
    Maybe just a word about the threats we are facing, if I can 
just say a few words about that. The chemical and biological 
threats in particular, which is what my office has 
responsibility for, they are very dynamic.
    And one of the problems we are facing now is the rapid 
advancement and proliferation of technologies is making the 
problem even more difficult, and extending the spectrum of 
plausible actors, agents, concepts of use and targets.
    And in addition, the range of the potential agents is very 
wide. And you know we have seen much in the news about some of 
the potential chemical threats, especially for something as 
simple as chlorine, which is ubiquitous, is a major concern. 
And it ranges all the way to very sophisticated nontraditional 
agents.
    And on the biological side it ranges from common infectious 
diseases that could be used as a pathogen of concern, all the 
way to possibly engineered organisms. So that the range and the 
dynamics make it a very vexing problem.
    So the research and development [R&D] and acquisition 
programs are planned for fiscal year 2016 for chemical threats 
includes detection, protection, decontamination and a sizable 
portion for medical countermeasures, which would include 
vaccines and therapeutics. Those also apply in those same areas 
for focus for the biological threats, same areas for detection 
and protection, decontamination and medical countermeasures.
    So those are the two main areas of focus. But these remain 
threats to our troops, our allies, civilians around the world. 
So to your point about the interagency interaction, that is 
something that is vital for our success here.
    So I appreciate the continued support of Congress, and 
especially among yourselves, for these important programs. And 
I look forward to answering any of your questions. Thank you.
    [The prepared statement of Dr. Hassell can be found in the 
Appendix on page 29.]
    Mr. Wilson. Thank you, Dr. Hassell.
    And we now proceed to Mr. Burnham.

   STATEMENT OF JOHN BURNHAM, DEPUTY ASSISTANT SECRETARY OF 
         DEFENSE FOR THREAT REDUCTION AND ARMS CONTROL

    Mr. Burnham. Chairman Wilson, Ranking Member Langevin, all 
the other members of the subcommittee, I too very much 
appreciate the opportunity to be here. I am the newest member 
of the team, having just joined after 28 years in the military.
    And my time in Naval Special Warfare taught me that working 
whole-of-government interagency is one of the most important 
things that we can do. And this mission area is truly one of 
the most important. So I do look forward to bringing a lot of 
that experience in as we continue the whole-of-government 
efforts.
    As you all know, our office, Threat Reduction [and] Arms 
Control, we have got four primary components. We manage the 
Department's nuclear, chemical, biological treaty 
implementation. We have oversight of the U.S. chemical weapons 
stockpile elimination. We have oversight of the Cooperative 
Threat Reduction Program, which is executed by Director Myers 
and the Defense Threat Reduction Agency. And we have oversight 
of the resource management efforts to develop and field a new 
awareness technology platform for CWMD.
    So a few points on each and how they project out into our 
efforts for fiscal year 2016.
    Our Treaty Management team obviously supports the work of 
the IAEA [International Atomic Energy Agency], ensures that all 
of our Department activities comply with the international arms 
control and nonproliferation agreements.
    Fulfilling our commitments under the Chemical Weapons 
Convention, we are moving forward with the destruction of the 
remainder of the U.S. chemical stockpile in the two sites: 
Pueblo, Colorado, and Richmond, Kentucky. In fact, just 
recently we started destruction operations in Pueblo, a major 
milestone. And we are on track to complete construction of the 
main pilot facility in Kentucky by the end of this year.
    Our Cooperative Threat Reduction [CTR] program is one of 
the most comprehensive efforts the Department has with partner 
countries to address WMD threats, anything that can manifest 
in, transit through, or emanate from their territory. And as we 
know, the nexus between terrorism and weapons of mass 
destruction and materials continues to blur and be of concern.
    We have accomplishments from this past year. Notably, Mr. 
Chairman, as you mentioned, the Cape Ray and the destruction of 
the declared Syrian weapons stockpile, and the efforts to 
mitigate the Ebola outbreak, and the ongoing participation 
there by DTRA and the resource aspects of AT&L [Acquisition, 
Technology, and Logistics].
    Finally, our countering WMD systems initiative, we are 
focusing on developing and finding a platform that will 
increase our situational awareness and information-sharing 
capability; there is a lot of information out in the U.S. 
Government. There is a lot of good work being done across the 
intell [intelligence] community to bring this information 
together. And our goal across our DOD, U.S. Government, and 
international partners is to increase that level of awareness 
in the CWMD arena.
    So I have submitted my written testimony for the record. I 
highlight additional successes in the past year. And I look 
forward to testifying today to talk about our goals for fiscal 
year 2016. Thanks.
    [The prepared statement of Mr. Burnham can be found in the 
Appendix on page 38.]
    Mr. Wilson. Thank you very much, Mr. Burnham.
    We now proceed to Mr. Myers.

  STATEMENT OF KENNETH A. MYERS III, DIRECTOR, DEFENSE THREAT 
    REDUCTION AGENCY AND U.S. STRATEGIC COMMAND CENTER FOR 
             COMBATING WEAPONS OF MASS DESTRUCTION

    Mr. Myers. Chairman Wilson, Ranking Member Langevin, 
members of the subcommittee. It is an honor to be here today to 
share with you the work being done to counter the threats posed 
by proliferation and use of weapons of mass destruction.
    There are three entities at our facilities at Fort Belvoir. 
Each has different mission areas, authorities, requirements, 
and funding. But they are all located together and intertwined 
in order to leverage expertise and coordinate efforts. 
Together, we represent the center of our Nation's countering 
weapons of mass destruction effort.
    I want to share with the committee our standup of a new 
directorate that is focused on our support to the nuclear 
deterrent and our stockpile. Our goal is to elevate our nuclear 
mission so that we meet the expectations of the recently 
completed DOD Nuclear Enterprise Review. It is our top 
priority.
    We also address important national security priorities like 
biological and chemical threats. Two of the best examples of 
the capabilities we provide and the missions that we take on 
are related to our work with Ebola and Syria.
    In both cases we had the expertise to evaluate a serious 
threat. We developed the needed technologies in close 
coordination with the organizations represented at this table. 
And we provided planning and execution support to all aspects 
of the operations.
    Now, thankfully, the Ebola cases in West Africa continue to 
decline and 600 metric tons of Syrian chemical weapons material 
has been destroyed. In addition, we are also currently involved 
in counter-proliferation efforts to assist Ukraine, 
specifically the Ukrainian border guards.
    Overall, we are scheduled to provide $39 million worth of 
equipment, including bulldozers, armored trucks, graders, 
thermal imagers, patrol boats, and concertina wire.
    I am proud of what our team has achieved and believe that 
we are good stewards of the taxpayer's dollar. As we look 
forward to fiscal year 2016, I am confident we are prepared to 
address future WMD threats around the world. I would be pleased 
to respond to your questions.
    [The prepared statement of Mr. Myers can be found in the 
Appendix on page 45.]
    Mr. Wilson. Thank you very much, Mr. Myers.
    Mr. Bryce.

 STATEMENT OF DOUGLAS W. BRYCE, DEPUTY JOINT PROGRAM EXECUTIVE 
          OFFICER FOR CHEMICAL AND BIOLOGICAL DEFENSE

    Mr. Bryce. Congressman Langevin and distinguished members 
of the subcommittee, I am grateful for the opportunity to 
testify on behalf of the Joint Program Executive Office for 
Chemical and Biological Defense, known as the JPEO-CBD.
    Joined with my partners in the countering WMD community, I 
will discuss my organization's activities under the June 2014 
Department of Defense Strategy for Countering WMD. And I will 
highlight the fiscal year 2016 budget request.
    The JPEO-CBD is the material developer and procurement arm 
of the DOD Chem[ical] Bio[logical] Defense Program. My 
organization also works closely with the Joint Science and 
Technology Office within the Department--the Defense Threat 
Reduction Agency for the technology efforts that will enhance 
our future capabilities.
    The JPEO is requesting $279 million for procurement and 
$506 million in advanced development in fiscal year 2016.
    Regarding collaboration within the strategy, we participate 
in the interagency forum known as the Public Health Emergency 
Medical Countermeasures Enterprise to ensure our medical 
programs are coordinated across the Federal Government.
    As to understanding the threat within the strategy, the 
fiscal year 2016 budget request funds sensors and bio-
surveillance situational awareness, efforts critical to the 
warfighter's ability to identify and respond to the threat.
    With respect to defeating or controlling the threat within 
the strategy, the DOD support for the international response to 
Syria chemical weapons is a great example. The DOD team 
represented at this table produced the Field Deployable 
Hydrolysis System, and deployed the capability aboard a U.S. 
maritime ship where it successfully destroyed the declared 
weapons of the Syrian regime.
    On safeguarding the joint force and the homeland, as 
required by the strategy, the fiscal year 2016 budget request 
funds medical and protection programs critical to the 
warfighter's ability to survive and recover from the global 
threat.
    We have also supported the DOD Ebola outbreak response by 
accelerating therapeutics and vaccines, and providing a 
transport isolation system to bring patients home safely. Our 
DOD Ebola diagnostics assay, and our latest platform to read 
the assay received emergency use authorization from the FDA 
[Food and Drug Administration], and have become a principal 
capability in West Africa and at home during the crisis.
    The challenges we face countering weapons of mass 
destruction are numerous. But I am optimistic that with the 
support from Congress we can continue to execute the strategy.
    Mr. Chairman, Congressman Langevin, and members of the 
subcommittee, thank you for your leadership.
    [The prepared statement of Mr. Bryce can be found in the 
Appendix on page 62.]
    Mr. Wilson. Thank you very much, Mr. Bryce. And we have a 
situation that the votes may start soon.
    With that, a question that I have for each of you: Members 
of this committee are trying to convince our colleagues of the 
negative adverse consequence of defense sequestration. If each 
one of you could identify just briefly a specific example of an 
adverse circumstance which has developed because of defense 
sequestration, beginning with Mr. Rosenbach.
    Mr. Rosenbach. Thank you very much, Mr. Chairman. You know 
the part that is most insidious about sequestration is that it 
doesn't allow us to develop the most modern force and invest in 
the most modern technologies.
    So in my mind the thing I worry about is that we might not 
have the resources, for example, to develop a capability for a 
future threat like we did for the Cape Ray, that we can pivot a 
little bit and do some innovation and think about a way to 
solve a very serious problem because we have had to cut back in 
some of those areas.
    I think it is also very important to note, Mr. Chairman, 
that the uncertainty that accompanies the planning process of 
not knowing whether it will be sequestration or not is very 
difficult for us to do planning. And you know in the Department 
of Defense we plan for everything so that we are prepared for 
the worst things in the world. That also has a great impact on 
our ability to protect the country.
    Thank you, sir.
    Dr. Hassell. Yes, sir. Maybe if I could just give one 
example, especially on the science and technology, the research 
end early on. As I mentioned, we have a number of medical 
countermeasures programs, the vaccines and drugs that we would 
use for both chemical and biological threats.
    We have a long list of these things that we are addressing. 
And we have to make some decisions about how we rank order 
those and how we prioritize that work. And we have to draw a 
line what we can fund; just one practical aspect of 
sequestration is we are going to have to draw that line much 
higher.
    And the specific example might be that we were fortunate 
that Ebola was still above that line. So we did have programs 
in place that were addressing that, along with our colleagues 
at HHS [Department of Health and Human Services]. 
Sequestration, I don't mean to overdramatize it but I mean it 
could have been that that line was drawn higher and we would 
have missed that opportunity.
    So that is just one example of a program that pretty 
passionate about that could have been adversely affected.
    Mr. Wilson. Thank you very much.
    Mr. Burnham.
    Mr. Burnham. I will segue on Dr. Hassell's point. One of 
the biggest advantages of the Cooperative Threat Reduction 
Program is the flexibility we have in the funding the Congress 
has given us. And we can react to opportunities to accelerate 
some of the undertakings we have with our international 
partners.
    Sequestration takes a lot of that flexibility away, 
particularly in the Cooperative Biological Engagement Program, 
as an example, or to Dr. Hassell's point, responding to crises 
and threats, very important for us in that CTR budget line.
    The other thing I would mention is the negative impact it 
would have on our ability to develop and field this operational 
prototype for the CWMD awareness system.
    As the WMD threat globalizes in terms of how information 
gets used and the availability of a platform for us to be able 
to accelerate that, not being able to develop software and 
integrate delay our authorities to operate and push that 
timeline out because we won't have the R&D funds because that 
is the kind of things that would probably fall above that line. 
Thanks.
    Mr. Wilson. Thank you.
    Mr. Myers.
    Mr. Myers. Mr. Chairman, my colleagues have spent some time 
speaking about the impacts on research and development, having 
the Field Deployable Hydrolysis System, having the Ebola 
therapeutics ready and available and ready to go.
    The impact--another impact that would have a significant 
degrading effect would be the Defense Threat Reduction Agency's 
support to the warfighter, support to the combatant commands. 
When they encounter a WMD situation, whether it be an incident, 
use, what have you, their first telephone call is to DTRA SCC 
[SCC-WMD, Strategic Command Center for Combating Weapons of 
Mass Destruction].
    And the impact of sequestration will make it much more 
difficult, and potentially in some situations impossible for us 
to respond, to have the operational capability, to have the 
flexibility, to have the opportunity to respond and meet those 
challenges that they are facing on the field of battle, and 
taking care of our men and women in uniform.
    Mr. Wilson. Well, I appreciate your concern very much.
    Mr. Bryce.
    Mr. Bryce. Mr. Chairman, I would also add that it is a 
personnel issue and it is a morale issue within a workforce. We 
are already in a, as my colleagues have mentioned, a 
constrained fiscal environment. So naturally the programs would 
be reduced or minimized in their process of procuring or 
developing. But it would also affect the morale and even pay of 
our workforce.
    Mr. Wilson. And I thank each of you.
    And we now proceed to Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    Again, thanks to our witnesses for being here and for your 
testimony. If I could with Mr. Myers, I would like to start. 
You mentioned the program Constellation in your written 
testimony.
    And Mr. Burnham, you were just discussing with the 
chairman, were you referring to Constellation, just to clarify?
    Mr. Burnham. That is correct. Yes.
    Mr. Langevin. Okay. Thank you for that.
    So I understand that this tool provides situational 
awareness for the U.S. agencies and international partners to 
exchange real-time information on the Ebola outbreak. Mr. 
Myers, if you could, could you please describe this tool in 
more detail?
    How is Constellation being leveraged for other missions 
across the Department? And what investments are being made in 
the fiscal year 2016 budget, particularly on how we and the 
committee can be helpful developing this tool.
    Mr. Myers. Yes, sir. Thank you. If it is okay, Mr. Burnham 
and I might tag team on this one.
    Mr. Langevin. Absolutely.
    Mr. Myers. I will spend a little bit of time talking about 
the role of the Ebola portal because the Constellation system 
is currently under development. We are the program manager. We 
are developing the system.
    And the best way to describe it is we are bringing all the 
different lines of information and--in the world, if you will, 
from the intelligence community, from open sources and the 
like, and we are fusing it together to create a common 
operating picture.
    So the entire counter WMD community, as well as the 
combatant commands and our leadership, are all operating off of 
the same information. And that we can be proactive rather than 
reactive to some of these WMD incidents that we are finding 
ourselves in on a relatively regular basis.
    The Ebola portal that you raised was an effort by us to 
speed up Constellation to make it relevant, to get it involved 
in the Ebola crisis and our response to that. So think of it as 
an offshoot, if you will, of our main effort on counter WMD.
    And the Ebola portal brought together the entire U.S. 
interagency. So we were able to share information. We were able 
to share the latest models, the latest forecasting, the latest 
updates on developments with therapeutics and with various 
vaccines.
    The work of our laboratories in the various countries and 
the embassy, it kept us all together. It kept us communicating 
as one. We are on the same song sheet, if you will.
    We were also able to make a portion of it available to some 
of the international organizations that were involved in the 
Ebola response, specifically the World Health Organization.
    Mr. Langevin. They participated as well.
    Mr. Myers. Well, they weren't part of it. The main portion 
of Constellation was for the United States Government to make 
sure we were all on the same page. But it became very clear as 
we were responding to the Ebola threat that this was not 
something that the United States could do alone.
    We needed to engage with our partners abroad. We needed to 
engage with the international community as well, as well as 
these--the local governments and leadership. So we made part of 
it, if you will, available to our partners so that we also 
could communicate with them on the latest breaking news and get 
ahead of some of these developments.
    Mr. Langevin. So let me ask, while I still have my time--to 
all the witnesses. How is the budget request for fiscal year--
fiscal year 2016 support the June 2014 CWMD strategy's emphasis 
on upstream or left-of-the-boom approach? Specifically, the two 
priority objectives, reducing incentives to pursue, possess, 
and deploy WMD, and increasing barriers to the acquisition, 
proliferation, and the use of WMD?
    Secretary, if we could start with you.
    Mr. Rosenbach. Thank you, Congressman Langevin. You know 
this is one of those things where when you look at it in its 
simplest form, you can point to the budget for CTR and the 
things directly related to DTRA that fall into the three 
components of the strategy. But you have to think even more 
broadly than that because deterrence is an important part of 
preventing the use of WMD.
    And so when you think about the overall readiness of the 
force that may even extend, for example, to the readiness of 
the nuclear enterprise or other aspects of a force. We want to 
make sure that all of those are there to deter nation-states 
first and non-state actors from using WMD to begin with.
    Mr. Langevin. Thank you. Thank you.
    Dr. Hassell. Sir, I would just add my program specifically 
is more focused on the third leg, mitigating the effects if WMD 
is used. We are now going through our whole portfolio and 
seeing which could really be specifically utilized more for 
those upstream issues.
    So in a number of cases they could be some of those 
specific technologies. And as was mentioned, the deterrence 
effect of those different technologies. So we are evaluating 
that as well.
    Mr. Burnham. Sir, I think for us inside CTR the balance and 
engagement program that DTRA executes as another example where 
you are trying to develop some of these scientific 
collaborations that will enhance the bio surveillance and 
reduce the threat and really get to that upstream piece where 
you are actually deterring and influencing partner nations and 
other actors from going down that road in the first place.
    Mr. Myers. Congressman Langevin, if I could I will expand a 
little bit on the Nunn-Lugar CTR program. And first and 
foremost I think it is important to remember how much the 
program has evolved.
    Twenty years ago we were focused on large infrastructure-
type dismantlement programs in the former Soviet Union. We were 
taking down missile submarines. We were taking down strategic 
bombers, SS-18 and SS-19 intercontinental ballistic missiles.
    The program has evolved to stay one step ahead of the 
terrorist organizations and the extremist groups that are 
seeking WMD. Our projects that we are coordinating now are not 
one billion dollar projects, but they are much smaller security 
and bio-safety efforts and proliferation prevention, border 
security projects in smaller quantities in smaller countries 
and locations around the world.
    So we have gone from this very large infrastructure-heavy 
projects to much smaller, much more focused efforts. And quite 
frankly there are more of them, but they are not as expensive, 
quite frankly, as the work we were doing in the former Soviet 
Union.
    And I think some of the change that you have seen in our 
budget is the fact that we aren't carrying out those large 
projects in Russia like we were just a few years before.
    Mr. Langevin. Thank you.
    Thank you, Mr. Chairman. I know my time is expired. I yield 
back.
    Mr. Wilson. And thank you, Mr. Langevin.
    And indeed votes have been called. And so--and due to the 
different series of votes, we want to thank each of you for 
being here.
    It is somewhat ironic that the first question I asked about 
defense sequestration, we are actually going to vote. And good 
people can disagree, but there will be an effort to address 
defense sequestration.
    And at this time we are adjourned.
    [Whereupon, at 4:06 p.m., the subcommittee was adjourned.]
   
=======================================================================


                            A P P E N D I X

                             March 25, 2015

=======================================================================
 


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 25, 2015

=======================================================================

      

    [GRAPHIC NOT AVAIABLE IN TIFF FORMAT] 
      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 25, 2015

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. WILSON

    Mr. Wilson. The Fiscal Year 2016 Department of Defense Budget 
Overview notes that the Joint Force requires rebalancing to deal with a 
broad spectrum of conflict, including WMD environments. What specific 
rebalancing does our Joint Force need to effectively deal with WMD, and 
what are our current shortfalls?
    Mr. Rosenbach. The Department of Defense is continuously evaluating 
its ability to counter weapons of mass destruction (WMD) threats while 
ensuring that the Joint Force is properly manned, trained and equipped 
in the event of a WMD crisis. As the 2015 Joint Strategic Capabilities 
Plan (JSCP) is finalized, Combatant Commands and Services will conduct 
internal analysis of their mission and force posture to determine if 
there is a need for any rebalancing.
    In addition, DOD works closely with its partners in the U.S. 
Government and international community in order to adapt to the 
evolving WMD threat, remain prepared and agile, and maintain readiness 
to counter the potentially catastrophic consequences. While 
sequestration challenges will significantly affect our ability to 
structure our forces, build partner capacity, and capitalize in 
research, science and technology, DOD will remain prepared to respond 
to future conflicts.
    Mr. Wilson. There has been a lot of discussion about the fact that 
biotechnology is widely proliferated now, which could make biothreats 
much more readily available to terrorist groups or even lone actors, 
domestically as well as abroad. How does this change our strategy to 
protect against biothreats?
    Mr. Rosenbach. We are concerned that the diffusion of technology 
and materials worldwide lowers barriers to acquire weapons of mass 
destruction (WMD), including dangerous biological materials. It is this 
increasing accessibility of technology in general--not just 
biotechnology--that influenced the emphasis on prevention and 
containment in our DOD Strategy for Countering WMD. Should prevention 
and containment fail, we must prudently hedge and continue development 
of capabilities that can be used to detect and identify novel threat 
agents, as well as protect our forces.
    Mr. Wilson. Since U.S. Forces have focused so heavily on 
counterinsurgency in Iraq and Afghanistan, are you concerned that some 
of the specialized and highly technical countering weapons of mass 
destruction (CWMD) skills and capabilities have eroded?
    Mr. Rosenbach. After more than 10 years of conflict--and amid 
budget reductions--the Joint Force's full spectrum readiness remains a 
concern. However, conventional and specialized technical forces 
continue to train and maintain the required capabilities and skills to 
respond to WMD threats in the homeland and overseas.
    Mr. Wilson. How concerned are we with the proliferation of dual-use 
technologies that could potentially be used for WMD development 
activities? Do we have good tracking mechanisms in place, and what are 
some of your programmatic and policy challenges in this area?
    Mr. Rosenbach. We agree with Director Clapper's assessment that 
access to the most dangerous weapons of mass destruction (WMD) 
technologies is not as difficult to obtain as it was in the past. 
Biological and chemical materials and technologies, almost always dual-
use, move more freely in today's globalized economy, as do the actors 
with the scientific expertise to design and use them. Two key 
challenges for DOD are instituting measures that provide appropriate 
controls while facilitating open commerce and research, and controlling 
the potentially unwitting proliferation of these technologies and 
materials during the course of normal daily commerce activities.
    To address these challenges, DOD supports the overall U.S. 
Government effort to raise barriers to access for those with illicit 
intent; strengthen oversight mechanisms and norms of responsibility 
regarding use and export of dual-use technologies and materials; and 
identify, track, and disrupt proliferation networks. For example, we 
strongly support the Proliferation Security Initiative's goals to 
strengthen international norms against the proliferation of WMD, invest 
in capacity-building programs with partner nations, and increase WMD-
related information sharing with international partners.
    DOD is a key participant in the four Multilateral Nonproliferation 
Export Control Regimes (Australia Group, Wassenaar Arrangement, Missile 
Technology Control Regime, and Nuclear Suppliers Group), and has been 
actively involved in interagency efforts to update U.S. export controls 
in support of the President's Export Control Reform Initiative. We are 
in the process of supporting revisions of U.S. export controls to more 
effectively control the most sensitive military items and technologies. 
I defer to the Departments of Homeland Security, Commerce, and State 
for information on export enforcement programs. Additionally, DOD is a 
long-time partner in the development and implementation of U.S. 
policies and regulations regarding dual-use research of concern in the 
life sciences and Biological Select Agents and Toxins (BSAT), 
respectively. The Select Agent Program, which regulates BSAT, requires 
tracking and inventory controls to ensure proper safeguarding of the 
agents.
    Mr. Wilson. How would you describe the level of information sharing 
and cooperation with the Intelligence Community to deal with the 
proliferation threat? As best you can outline in this open forum, what 
are our gaps?
    Mr. Rosenbach. The Intelligence Community (IC) continues to provide 
high quality intelligence regarding weapons of mass destruction (WMD) 
threats. This intelligence plays a critical role in early warning, risk 
assessment, and forecasting--regarding not only the direct effect of an 
actual event, but also its second and third order effects, no matter 
the source.
    We maintain a close partnership with the IC to ensure success in 
the CWMD mission area, due to the nature of the extremely sensitive 
information. Additionally, we work with other Federal departments and 
agencies to enhance cooperation with partners on national security and 
counter-proliferation, ensure accountability for information sharing, 
and provide wider access to necessary databases when possible. I can 
elaborate on potential gaps in a closed forum.
    Mr. Wilson. Given that the Food and Drug Administration (FDA) 
approval process for medical countermeasures can be lengthy and 
unpredictable, what is the risk to the Department of Defense in having 
to wait for FDA approval on a countermeasure? What steps can the DOD 
take to mitigate that risk?
    Mr. Rosenbach. The risk in waiting for approval is that our 
military forces may not have a layer of protection in place when 
needed. We continue to work very closely with the FDA to expedite our 
access to medical countermeasure by using mechanisms such as the FDA's 
amended Emergency Use Authorization (EUA) authorities provided under 
the Pandemic and All Hazards Preparedness Reauthorization Act. Based on 
these FDA authorities, DOD can seek an EUA for an anticipated threat, 
or an EUA to support a chemical, biological, radiological, or nuclear 
(CBRN) response. This lowers the risk to DOD, and the overall U.S. 
Government, since that short-notice emergency authorization is 
possible. These authorities have also enabled us to optimize our 
acquisition strategies for CBRN-related medical countermeasures.
    Mr. Wilson. What is DOD doing to address Biothreats globally?
    Mr. Rosenbach. In support of the three lines of effort outlined in 
the DOD Strategy for Countering Weapons of Mass Destruction--prevent 
acquisition, contain and reduce threats, and respond to crises--DOD 
addresses biothreats globally in a variety of ways. For example, our 
DOD Cooperative Biological Engagement Program engages partners in 
Africa, South and Southeast Asia, the Middle East, and Eastern Europe 
to establish safe and secure biosurveillance infrastructure to prevent 
and detect acquisition and use. As another example, DOD supports its 
interagency partners from the Departments of Commerce and State in 
advancing treaties and regimes, such as the Biological Weapons 
Convention and the Australia Group. Many DOD activities for addressing 
biothreats and building partner capacity support international efforts, 
such as the Global Health Security Agenda.
    Mr. Wilson. There appears to be significant overlap in the 
manufacturing capabilities of medical countermeasures between the DOD 
and the Department of Health and Human Services (DHHS). Is it really 
necessary that the DOD have independent manufacturing capabilities? 
What steps are you taking to coordinate your efforts with these 
agencies and to avoid duplication of efforts? How much will the DOD be 
able to leverage the DHHS manufacturing capabilities? What else should 
we be doing that we aren't already doing?
    Mr. Rosenbach. DHHS and DOD serve different populations and fulfill 
different missions, and therefore have areas of differing health 
protection needs. Acquisition programs that rely on one source can 
expose our forces to unnecessary risk, especially if that source is 
compromised. Maintaining these capabilities reduces the risk to both 
Departments, our service members, and the general public; additionally 
it enables both Departments to pursue respective objectives at the pace 
each requires.
    Mr. Wilson. Once the DOD's medical countermeasures advanced 
manufacturing facility is completed, will the Department be able to 
place orders for doses of countermeasures directly from the facility? 
Or will we still have to issue solicitations and competitively bid the 
work? If we still have to competitively bid the work, what is the 
advantage of the DOD having its own manufacturing facility?
    Mr. Rosenbach. DOD's Advanced Development and Manufacturing (ADM) 
facility will provide DOD an advantage due to its flexible and modular 
design, allowing us to obtain a large array of DOD-specific products at 
lower than commercial quantities. The Joint Program Executive Office 
(JPEO) will continue to work on establishing contracting mechanisms and 
effective strategies for medical countermeasure programs to leverage 
the ADM's unique capabilities, and is the best source for more specific 
information.
    Mr. Wilson. What is currently being done in the way of consequence 
management planning and preparedness against Chemical, Biological, 
Radiological and Nuclear (CBRNE) attacks both abroad and within the 
U.S.?
    Dr. Hassell. USNORTHCOM and USPACOM are responsible for planning, 
organizing, and executing homeland defense and civil support missions, 
including response to CBRN events, in their respective areas of 
responsibility. The CBRN Response Enterprise is available to the 
commands, whenever necessary, to execute missions as ordered by the 
President or Secretary of Defense. The CBRN Response Enterprise 
includes 57 National Guard Weapons of Mass Destruction-Civil Support 
Teams (approximately 1,254 military personnel), 17 National Guard CBRN 
Response Force Packages (approximately 1,379 military personnel), 10 
National Guard Homeland Response Forces (approximately 5,770 military 
personnel), the Defense CBRN Response Force (approximately 5,350 
military personnel), and two CBRN Command and Control Response Elements 
(approximately 3,000 military personnel). Additionally, all 
installations coordinate response to CBRNE events in their local areas.
    Outside of the U.S., responsibility for planning and executing CBRN 
responses resides with the appropriate Combatant Commands, using both 
assigned and attached forces. These responses are coordinated with the 
host nation through the Department of State.
    The Chemical and Biological Defense Program supports these missions 
by developing and fielding enhanced capabilities to the CBRN Response 
Enterprise units, such as protection, detection, diagnostics, and field 
analytical equipment.
    The Defense Threat Reduction Agency provides both planning and 
technical support to the Combatant Commands for any CBRN response 
missions, whether in the U.S. or abroad.
    Two examples of CBRN response planning and preparedness efforts 
are; the Transatlantic Collaborative Biological Resiliency 
Demonstration, executed closely with DOD, DOS, DHS, and Poland; and the 
bilateral U.S.-Republic of Korea, Able Response exercise series, both 
of which allow us to apply lessons learned to international and 
homeland response efforts.
    Mr. Wilson. What is currently the Department of Defense's highest 
priority program in Chem/Bio?
    Dr. Hassell. The CBDP utilizes risk and threat assessments to 
ensure resources are allocated to efforts directed at efficiently 
reducing operational risk to the warfighter. No one investment is the 
highest priority; CBDP resources are applied to provide an integrated, 
layered defense against both current and emerging CB threats. Within 
the FY16 budget request, we have focused our efforts in the areas of 
Non-Traditional Agent defense, Biosurveillance, Medical 
Countermeasures, and Advanced Diagnostics.
    Mr. Wilson. In your view, are Department of Defense resources 
appropriately allocated according the relative risks of chemical, 
biological, and nuclear threats? If not, what would you change?
    Dr. Hassell. Yes. Within the Chemical and Biological Defense 
Program (CBDP) portfolio we are using a rigorous, risk and threat 
informed approach to develop and re-examine our investment strategy. To 
inform this process, we work closely with the Intelligence community, 
including the Defense Intelligence Agency, Central Intelligence Agency, 
National Geospatial-Intelligence Agency, etc to evaluate current and 
emerging threats. This analysis informs capability development within 
the context of planned and future operations. We consider Force 
Management Risk through the lens of modernization, and Institutional 
Risk through our ability to develop capabilities now and in the future. 
Through this process, we identify areas within CBD that present the 
most risk to the Warfighter, both now and in the future, and then 
allocate resources to best mitigate those risks through science and 
technology (S&T), systems acquisition, testing, and fielding. We also 
continually evaluate our portfolio to assess ways to mitigate 
operational risks through a layering of capabilities, such as 
integrated protection against threats that are difficult to detect 
using currently available technologies.
    Mr. Wilson. Given the emphasis placed on non-traditional agents by 
the Chem Bio Defense Program, how prepared are we to deal with new 
threats? Are our existing capabilities agile enough to rapidly adapt to 
deal with agents that have been previously unseen?
    Dr. Hassell. We are more prepared than ever to deal with new 
threats. DOD provided equipment and training to special purpose forces 
who are most likely to encounter NTAs during overseas contingency 
missions and for defense support of civil authorities in the homeland. 
Several programs are currently funded to enhance NTA defense capability 
over the next 5-7 years for special purpose units and general purpose 
forces. DOD remains committed to developing NTA defense capabilities in 
the priority areas of detection, medical countermeasures, 
decontamination, and protection. DOD's focus has been on accelerating 
efforts to counter the potential use of NTAs by concentrating first on 
the set of priority agents deemed most dangerous. DOD places great 
emphasis on assuring that systems developed and fielded are flexible 
enough to address emerging threats. Research and development through 
2021 will focus efforts on fundamental characterization of new agent 
categories to further assess the impact and limitations of currently 
available defense countermeasures.
    Mr. Wilson. Given that the Food and Drug Administration (FDA) 
approval process for medical countermeasures can be lengthy and 
unpredictable, what is the risk to the Department of Defense in having 
to wait for FDA approval on a countermeasure? What steps can the DOD 
take to mitigate that risk?
    Dr. Hassell. While the FDA approval process can be lengthy and 
unpredictable, it remains the best way to ensure that our troops are 
only given the safest and most effective medical countermeasures (MCM) 
available. The recent Ebola epidemic in West Africa has illustrated the 
need for rapid deployment of MCMs in emergency situations, even in the 
absence of full, formal FDA approval. Fortunately, the FDA has 
alternative mechanisms to enable fielding and use of investigational 
MCMs in emergency and other special situations, such as Emergency Use 
Authorization (EUA), emergency Investigational New Drug (IND) use, and 
the DOD's special immunizations program. We have directed our MCM 
developers to consider these and any other available interim fielding 
mechanisms throughout their developmental processes. The DOD will 
continue to press for strategic pre-preparation of all the necessary 
testing and manufacturing documentation ahead of a biological event to 
allow for rapid acquisition and fielding of MCMs.
    Mr. Wilson. What is DOD doing to address Biothreats globally?
    Dr. Hassell. The DOD coordinates with the U.S. interagency and 
international partners to achieve the goals and objectives of the DOD 
Strategy for Countering Weapons of Mass Destruction (CWMD). 
Specifically, the Chemical and Biological Defense Program (CBDP) 
supports the CWMD Strategy by developing capabilities in the areas of 
protection, detection, biosurveillance, diagnostics, medical 
countermeasures, and decontamination. The DOD CBDP, Cooperative Threat 
Reduction, and Force Health Protection programs work together to 
address chemical and biological threats to the Warfighter and U.S. 
citizens; these activities support international efforts, such as the 
Global Health Security Agenda. As seen in the recent Ebola epidemic in 
West Africa, capabilities developed to meet DOD-specific requirements 
can also benefit U.S. civilians and international partners, and as such 
are an important DOD contribution to global health security.
    Mr. Wilson. What are some of your unfunded requirements? Where are 
your largest gaps in funding?
    Dr. Hassell. The President's Budget request provides the Department 
the necessary funding required to address the chemical and biological 
threats. If sequestration were to be implemented, the corresponding 
unfunded efforts would negatively impact the CBDP's ability to research 
and develop capabilities that are focused on current and future 
threats. We must be prepared to address all threats and ensure 
capabilities are developed that enable the Joint Force to sustainably 
operate in any environment. The most recent example of this critical 
capability is our ability to accelerate development of Ebola vaccines 
and therapeutics in response to the West African epidemic.
    Mr. Wilson. How effective are we at providing our troops with the 
most modern protective equipment for Chemical, Biological, Radiological 
and Nuclear (CBRN) threats? How much feedback do we get from the 
services on their capability gaps, and how easy is it for us to respond 
quickly to fill those gaps?
    Dr. Hassell. Working with the Services through the Joint Staff's 
Joint Requirements Office for CBRN Defense, we have been very effective 
at providing our Warfighters the specific equipment they need to 
survive, fight, and win in chemically or biologically contaminated 
environments. For example, we recently developed, tested, and fielded a 
holistic protection, detection, and decontamination capability against 
Non Traditional Agents in less than two years. This effort was made 
possible by the flexibility of the Joint Capabilities Integration and 
Development System process and our ability to identify and realign 
resources for such emerging threats. Direct engagement with the troops 
who utilize and rely on our equipment provides unfiltered feedback and 
gains stakeholder buy-in for Research, Development and Acquisition 
activities. I have made such direct engagement a priority for myself, 
personally, as well as for the CBDP Enterprise.
    Mr. Wilson. There appears to be significant overlap in the 
manufacturing capabilities of medical countermeasures between the DOD 
and the Department of Health and Human Services (DHHS). Is it really 
necessary that the DOD have independent manufacturing capabilities? 
What steps are you taking to coordinate your efforts with these 
agencies and to avoid duplication of efforts? How much will the DOD be 
able to leverage the DHHS manufacturing capabilities? What else should 
we be doing that we aren't already doing?
    Dr. Hassell. The DHHS and DOD Advanced Development and 
Manufacturing (ADM) facilities were designed to meet the specific needs 
of each Department. For example, the DOD only needs enough of any 
single MCM for the military population, while DHHS must be ready to 
provide enough MCMs for the entire U.S. population; therefore, the DHHS 
and DOD facilities are designed to function at different production 
scales. In addition, having a DOD facility ensures that there is 
sufficient production capacity for the MCMs we prioritize.
    The DOD designed its ADM with DHHS input. DHHS and DOD have 
established a governance board to ensure coordination and use of the 4 
facilities to support a ``whole of government approach.'' We have a DOD 
representative on the Executive Steering Group of DHHS's ADM Governance 
Board. Once the DOD ADM is established, the joint DOD/DHHS Governance 
Board will be in place through which DOD and DHHS can further 
collaborate.
    The Governmental Accountability Office 2014 review (http://
www.gao.gov/products/GAO-14-442) of the DOD and DHHS coordination on 
Medical Countermeasures demonstrated the effective implementation of 
Federal best practices for interagency collaboration.
    Mr. Wilson. Once the DOD's medical countermeasures advanced 
manufacturing facility is completed, will the Department be able to 
place orders for doses of countermeasures directly from the facility? 
Or will we still have to issue solicitations and competitively bid the 
work? If we still have to competitively bid the work, what is the 
advantage of the DOD having its own manufacturing facility?
    Dr. Hassell. There is no specific funding for the Medical 
Countermeasure (MCM) Advanced Development and Manufacturing (ADM) 
facility in the FY16 budget request; it will be sustained through use 
by the individual MCM development efforts. The Joint Program Executive 
Office for Chemical and Biological Defense continues to look for 
innovative and streamlined contracting mechanisms and strategies for 
medical countermeasure programs to leverage the ADM's capabilities.
    The advantages gained from utilizing the ADM's capabilities go 
beyond contracting considerations. The ADM facility will provide a 
dedicated state-of-the-art center of excellence focused on flexible, 
modular, and single-use manufacturing techniques to meet DOD needs. The 
flexible nature of the ADM will be able to support the large array of 
DOD-specific products at lower than commercial quantities. The facility 
will continually upgrade based on emerging technologies, and cover a 
full array of development and product services. Utilizing the ADM will 
also allow the implementation of lessons learned across the DOD product 
portfolio, which has the opportunity to shorten the development cycle 
and eliminate redundancies.
    Mr. Wilson. There has been a lot of discussion about the fact that 
biotechnology is widely proliferated now, which could make biothreats 
much more readily available to terrorist groups or even lone actors, 
domestically as well as abroad. How does this change our strategy to 
protect against biothreats?
    Mr. Myers. Congressman Wilson, you have raised an important issue. 
As you have described, our mission is complicated given the current 
nature of countering weapons of mass destruction. During the Cold War, 
most of our focus was on nation states. We were worried about huge 
stockpiles of nuclear, chemical, and biological materials. While there 
is no question that some of these stockpiles are still a threat today, 
the more difficult area for us to track and address is terrorist 
acquisition of WMD materials that can be modified, grown, or enhanced 
for use as a weapon. The footprint is smaller in these cases, harder to 
track and thus harder to find and disrupt. We are not talking about 
huge factories or facilities in most of these cases; sometimes it is a 
small laboratory that could fit inside a bathroom. Given this reality, 
no region of the world is impervious to potential threats. The Nunn-
Lugar Cooperative Threat Reduction Program contributes to the 
President's Global Health Security Agenda which is working globally to 
prevent, detect, and respond to infectious disease threats, no matter 
their source. This includes those biothreats that could be spread 
intentionally through malicious use of biotechnology.
    DTRA/SCC-WMD continues to partner with the U.S. Intelligence 
Community (IC), and the United States Government (USG) as a whole, in 
order to accurately identify and characterize all current and future 
biothreats. For example, DTRA/SCC-WMD worked closely with Joint Program 
Executive Office for Chemical and Biological Defense (JPEO/CBD) to 
create the Ebola Portal, a secure virtual environment designed to 
provide situational awareness and facilitate interagency and 
international collaboration related Ebola Outbreak operations and 
support in West Africa.
    Mr. Wilson. What is currently being done in the way of consequence 
management planning and preparedness against Chemical, Biological, 
Radiological and Nuclear (CBRNE) attacks both abroad and within the 
U.S.?
    Mr. Myers. DTRA is helping the U.S. Government consequence 
management planning and preparedness against CBRNE attacks by 
researching and developing accurate and reliable models, tools and 
information needed to effectively manage post-event responses.
    DTRA's Technical Reachback is heavily integrated into CBRNE 
consequence management planning and preparedness. Some of DTRA 
Reachback's specific initiatives include:
    <bullet>  Implementation of a Doctrine, Organization, Training, 
materiel, Leadership and Education, Personnel, Facilities, and Planning 
(DOTmLPF-P) Change Recommendation (DCR) to ``provide DOD with a 
singularly focused National Countering Weapons of Mass Destruction 
Technical Reachback Support Enterprise to link DOD, Interagency and 
other national and international technology based subject matter 
experts into a collaborative, net-centric information environment.
    <bullet>  Involvement in Jack Rabbit II--a Department of Homeland 
Security large-scale outdoor chlorine release experiment used to 
validate modeling and analytical tools
    <bullet>  Training on modeling and analytical tools for our 
Department of Defense, U.S. Government interagency, state, and local 
first responder partners.
    <bullet>  Designation as the Technical Operations Hub for the 
Federal Emergency Management Agency's Interagency Modeling and 
Atmospheric Assessment Center which provides first responders with 
predictions of hazards associated with atmospheric releases to aid the 
decision making process, and to protect the public and the environment
    <bullet>  Deployment of Technical Support Teams to provide onsite 
decision support for a wide range of targeting options.
    <bullet>  Integration with the United Kingdom's Defense Science and 
Technology Laboratory (Dstl--UK's Reachback) and the NATO's Joint 
Chemical, Biological, Radiological, and Nuclear Center of Excellence 
(JCBRN COE--NATO's Reachback).
    With regard to domestic preparedness for CBRN attacks, DTRA/SCC-WMD 
provides education and training for DOD entities via the Defense 
Nuclear Weapons School, at Kirtland AFB, NM. Additionally, DTRA/SCC-WMD 
provides counter-WMD contingency planning support, as well as technical 
advice and crisis planning assistance through deployable planning and 
advisory teams, and maintains 24-hour subject matter expert support 
available through the DTRA/SCC-WMD Joint Operations Center. 
Additionally, DTRA/SCC-WMD's Nuclear Accident and Incident Exercise 
program prepares geographic combatant commands (GCCs) to respond to 
nuclear incidents involving U.S. stockpile weapons should they occur in 
CONUS or worldwide. Overseas, DTRA/SCC-WMD's CBRN Preparedness Program 
(CP2) supports all the GCCs to provide partner nations with skillsets 
to effectively respond to WMD incidents through increased tactical and 
operational capabilities. The goal of this program is to enhance 
regional and national CBRN response planning and capabilities to 
minimize the impact of WMD events and to decrease reliance on U.S. 
response assets. CP2 executes newly acquired National Defense 
Authorization Act (NDAA) 2014, Section 1204 to train and equip both 
civil and military first responders within authorized countries to 
enhance overall their preparedness for CBRN events. Lastly, the Foreign 
CBRNE Exercise Program supports GCCs in exercising their capabilities 
and refining plans to conduct International CBRN response, both 
internally and with foreign partners.
    Mr. Wilson. How concerned are we with the proliferation of dual-use 
technologies that could potentially be used for WMD development 
activities? Do we have good tracking mechanisms in place, and what are 
some of your programmatic and policy challenges in this area?
    Mr. Myers. The proliferation of WMD-related dual-use technologies, 
materials, components, and equipment to/from state and non-state actors 
of concern continues to pose a significant threat to national, 
regional, and global security. As the Director of National Intelligence 
notes, ``The time when only a few states had access to the most 
dangerous technologies is past. Biological and chemical materials and 
technologies, almost always dual-use, move easily in the globalized 
economy, as do personnel with the scientific expertise to design and 
use them.'' Accordingly, DTRA/SCC-WMD participates in a multitude of 
working groups, analytic exchanges, and training evolutions designed to 
accurately identify and characterize dual-use technologies of concern. 
In addition, international legal frameworks in the form of treaties, 
embargoes and sanctions--including those designated by the United 
Nations Security Council, multilateral arrangements such as the Nuclear 
Suppliers Group, the Australia Group, the Missile Technology Control 
Regime, and the Wassenaar Arrangement, as well as national export 
control mechanisms, provide a legal basis for regulating transfers of 
dual-use goods.
    DTRA/SCC-WMD is actively engaged with other elements of the DOD, 
the U.S. interagency, and partner nations to counter WMD-related 
proliferation through a variety of programs designed to build partner 
capacity through projects and activities designed to enhance border and 
port security, WMD detection and investigation, and 
counterproliferation interdiction capability.
    In the nuclear arena, we have studies ongoing in our Nuclear 
Technologies Department to examine the entire threat pathway for the 
development of nuclear weapons in order to determine how the United 
States Government can most effectively detect and disrupt such 
activities. From these studies, we expect to find key areas where DTRA 
can develop and transition technologies to help address the 
proliferation of dual-use technologies. One particular dual-use 
technology of concern is additive manufacturing (commonly known as 3-D 
printing). Additive manufacturing can bypass the large manufacturing 
base and highly specialized skills previously required and allow an 
adversary with very limited resources and/or know-how to manufacture 
many key components of WMD weapon.
    Mr. Wilson. How would you describe the level of information sharing 
and cooperation with the Intelligence Community to deal with the 
proliferation threat? As best you can outline in this open forum, what 
are our gaps?
    Mr. Myers. DTRA/SCC-WMD maintains an important relationship with 
the Intelligence Community. DTRA/SCC-WMD would be pleased to brief the 
Committee on these matters in a closed forum.
    For information sharing, DTRA/SCC-WMD manages a program called 
Constellation, which is a DOD program focused on providing and sharing 
Countering WMD Situational Awareness across DOD, the Interagency, and 
our international partners. Constellation is comprised of knowledge-
based Information Systems, driven by support cells. DTRA/SCC's 
Countering WMD Information Integration Cell (CIIC) provides CWMD 
situational awareness to the combatant commands and CWMD community by 
integrating, fusing, and disseminating operations, planning and other 
pertinent information to provide a dynamic picture of the global CWMD 
steady-state operating environment, alerts users to changes requiring 
action, and provides information to support contingency operations. The 
Constellation program is sponsored by U.S. Strategic Command, and 
resourced by the Office of the Assistant Secretary of Defense for 
Nuclear, Chemical, and Biological Defense Programs [OASD(NCB)]. 
Constellation demonstrated a promising level of information sharing and 
cooperation through the Ebola Portfolio while supporting efforts during 
the recent Ebola outbreak in Western Africa.
    Mr. Wilson. What lessons has DOD learned from the Libya chemical 
weapons destruction mission?
    Mr. Myers. From the planning perspective, we've learned from the 
events in Syria and Libya and are applying the lessons to our ongoing 
planning efforts. Specifically, we learned that we need to be prepared 
for non-traditional Nunn-Lugar Cooperative Threat Reduction missions. 
These cases required rapid, flexible responses aimed at securing and 
destroying weapons to prevent proliferation. In order to accommodate 
these new and emerging situations, we have begun the development of a 
series of Regional Plans aimed at shaping the pre-event or pre-crisis 
strategic environments. These regional plans directly link to our 
crisis response plans to allow us to rapidly transition from shaping, 
to responding and/or providing support to the respective Geographic 
Combatant Commander or USSOCOM. This new approach allows us to be more 
efficient in the ways we shape the regional environments, while 
increasing our preparedness and reducing the time it takes to 
transition to crisis or event response.
    Mr. Wilson. What did you learn about the benefits of programmatic 
flexibility and anticipating of emerging threats from the Syria 
chemical weapon destruction mission?
    Mr. Myers. Congressman Wilson, we found that for this mission the 
need for a process and the equipment to destroy Syrian chemical weapons 
required rapid development and acquisition of a capability tailored to 
the unique conditions on the ground in Syria. The Field Deployable 
Hydrolysis System (FDHS) is a fast-track acquisition project initiated 
in February 2013. Amazingly, the first unit was delivered on July 1, 
2013. Design, procurement, fabrication, testing and training were 
produced by a government team consisting of DTRA, the Edgewood Chemical 
Biological Center (ECBC), Joint Project Manager for Elimination, the 
Joint Program Executive Office for Chemical and Biological Defense and 
the U.S. Army Contracting Command.
    An additional significant benefit of programmatic flexibility was 
the ability to use Nunn-Lugar Cooperative Threat Reduction Program 
(CTR) funding for many operational requirements. CTR funds allowed us 
to increase our responsiveness and availability to support the 
destruction mission.
    The removal and destruction of the Syrian chemical weapons 
stockpile was a fluid and evolving operation that required the 
development of alternative courses of action as USG and international 
decisions were being made. The benefits of programmatic funding 
flexibility enabled the Syria Chemical Weapons Elimination Project to 
reallocate funding when needed to meet new and emerging requirements. 
Early on, the project faced an unstable set of requirements coupled 
with a very tight destruction timeline. The benefits of notwithstanding 
authority and the re-notification process enabled the project to move 
funding from other projects to the Syrian Chemical Weapons Elimination 
project efficiently. This flexibility and the use of Economy Act 
transactions allowed the project team to put money where it was needed, 
acquire the goods and services required to meet project requirements, 
and accomplish the mission ahead of schedule.
    Mr. Wilson. What is DOD doing to address Biothreats globally?
    Mr. Myers. The DOD is committed to the Global Health Security 
Agenda (GHSA) to accelerate progress toward a world safe and secure 
from infectious disease threats and to promote global health security 
as an international security priority. In support of the GHSA, the DOD 
works together with partners around the world to prioritize coordinated 
action and specific, measurable steps focused on: preventing epidemics, 
detecting biological threats early, and rapidly responding to disease 
outbreaks, whether naturally occurring, intentionally produced, or 
accidentally caused. The DOD actively coordinates these Bio-threat 
efforts with other departments and agencies that also play a role in 
the GHSA, including the Departments of Health and Human Services, 
Agriculture, and the U.S. Agency for International Development.
    DTRA develops and transitions technologies to anticipate, detect, 
analyze, defeat and assess biothreats globally. The USSOCOM Combating 
Weapons of Mass Destruction-Terrorism Support Program develops 
processes to forecast plausible terrorist WMD threats to aid planning 
and operations, and to prevent terrorists from acquiring WMD. The DTRA 
Bio-ISR program is developing advanced sensors and technologies to 
enable forces to search for, detect and characterize biological threats 
and processes before release. The DTRA Weapons and Capabilities program 
continues to develop concepts and technologies to deny access or 
functionally defeat biothreats. Technology development focuses on the 
physical or functional defeat of biological threat materials, an 
adversary's ability to deliver the same, and the physical and non-
physical support networks enabling both.
    DTRA has two additional programs aimed at addressing Bio-threats 
globally: The Biosurveillance Ecosystem (BSVE) program and the Field 
Forward Diagnostics (FFDx) program. BSVE is a rapidly emerging 
capability being developed to bring together data, tools and the users 
in a cloud-based, social, self-sustaining web environment to enable 
real-time biosurveillance for disease prediction and forecasting, 
similar to the functionality of weather forecasting. FFDx is 
developing, testing, and demonstrating the linkage of ubiquitous, 
rugged, field-forward diagnostic devices capable of linking wirelessly 
to the BSVE at various international sites.
    DTRA/SCC-WMD's Nunn-Lugar Cooperative Threat Reduction (CTR) and 
Building Partner Capacity programs are addressing biothreats globally. 
Both the Threat Reduction Engagement Program (CTR) and the 
International Counterproliferation Program (ICP) have held meetings, 
symposia, and training events around the world to bring together 
experts in counterproliferation and biology to increase the level and 
substance of dialogue concerning the control of biological threats. 
Furthermore, ICP continues to develop and offer new courses related to 
countering the proliferation of biological threats. The CTR Cooperative 
Biological Engagement Program (CBEP) prevents the proliferation of 
biological weapons, weapons components, and weapons-related military 
technology and expertise. Included are activities that facilitate 
detection and reporting of highly pathogenic diseases or diseases that 
can be associated with or utilized as an early warning mechanism for 
disease outbreaks that could impact the armed forces of the United 
States or allies and partners of the United States.
    Mr. Wilson. Can you discuss how current events in the Middle East 
and Northern Africa are impacting DTRA's operations and planning? In 
particular with regards to Syria and Libya. Have you received 
additional requests for support from CENTCOM and AFRICOM? What are some 
of your largest concerns?
    Mr. Myers. DTRA is conducting operations and planning future 
activities in conjunction with USCENTCOM to build partner capabilities 
and capacity in several countries in the Middle East. These activities 
are being conducted through the Nunn-Lugar Cooperative Threat Reduction 
(CTR) program and Section 1204 of the National Defense Authorization 
Act for 2014 authorities. The current events in the Middle East with 
regard to threats from ISIL have limited some of our activities. 
Namely, some planned activities in Iraq were suspended. USCENTCOM has 
requested that DTRA be prepared to provide support to their campaign 
against DAESH in Syria and Iraq. Our largest concern is the potential 
for the proliferation of WMD materials and/or expertise from and 
through the areas under the influence of DAESH that presents a risk to 
Allies, U.S. interests and the homeland.
    The events surrounding and related to the security and destruction 
of Libya's declared CW directly and indirectly impacted and influenced 
DTRA's operations and planning. From a contingency/crisis response 
perspective, we rapidly transitioned to crisis response mode and were 
able to effectively coordinate and synchronize internal as well as 
external assets. In addition, we were able to redirect funds to support 
this evolving priority requirement.
    From the planning perspective, we've learned from the events in 
Syria and Libya and are applying the lessons to our ongoing planning 
efforts. Specifically, we learned that we need to be prepared for non-
traditional cooperative threat reduction (CTR) missions. These cases 
required rapid, flexible responses aimed at securing and destroying 
weapons to prevent proliferation. In order to accommodate these new and 
emerging situations, we have begun the development of a series of 
Regional Plans aimed at shaping the pre-event or pre-crisis strategic 
environments. These regional plans directly link to our crisis response 
plans to allow us to rapidly transition from shaping, to responding 
and/or providing support to the respective Geographic Combatant 
Commander or USSOCOM. This new approach allows us to be more efficient 
in the ways we shape the regional environments, while increasing our 
preparedness and reducing the time it takes to transition to crisis or 
event response.
    Mr. Wilson. What are some of your unfunded requirements? Where are 
your largest gaps in funding?
    Mr. Myers. DTRA's FY2016 Budget request fully funds DTRA's mission 
and makes strategic choices to balance mission priorities.
    DTRA's Budget to Strategy process provides an Agency level 
prioritization of CWMD efforts. Inevitably, there are always trade-offs 
in scope and schedule to meet the Nation's CWMD requirements. Within 
the Research and Development portfolio, DTRA constantly re-evaluates 
the portfolio to balance risk with game changing technology and to seek 
innovation that will meet future WMD threats. While the President's 
budget is sufficient to achieve our R&D portfolio, DTRA routinely seeks 
opportunities to accelerate, modernize, and further innovate. Some of 
these efforts include:
    Agent Defeat Warfighter Capability: Combatant Commands have 
expressed the need for the capability to destroy facilities containing 
chemical and biological threats without releasing the threat agents 
into the environment and causing catastrophic collateral damage. 
Operational planning against such targets is difficult because of the 
great uncertainty associated with use of current weapons against these 
sorts of targets.
    Missile Defeat Enterprise: Adversaries have made it increasingly 
difficult to locate missiles and missile launch capabilities, for 
example by developing mobile launch platforms. The U.S. requires the 
capability to locate this class of target, and the means to test and 
validate technologies developed for this purpose.
    Mr. Wilson. What is currently the Department of Defense's highest 
priority program in Chem/Bio?
    Mr. Bryce. The Chemical and Biological Defense Program (CBDP) 
utilizes a capabilities-based planning process to align resources based 
on holistic threat-informed, risk-based assessments. No single 
investment is the highest priority as CBDP resources are applied to 
ensure an integrated, layered defense able to address both current and 
emerging chemical and biological threats. Nonetheless, high-priority 
efforts include those directly supporting ongoing contingencies as well 
as those strengthening the capacity of allies and partners to counter 
chemical, biological, radiological, and nuclear (CBRN) threats. For 
example, the CBDP support to the DOD response to the Ebola outbreak in 
West Africa has involved accelerating medical countermeasure 
development, providing diagnostics with increased accuracy and shorter 
response times, applying biosurveillance tools, and producing new 
protection capabilities. Meanwhile, to enhance the ability of U.S. 
Forces Korea and the Republic of Korea to respond to biological 
threats, the CBDP's Joint U.S. Forces Korea Portal and Integrated 
Threat Recognition (JUPITR) advanced technology demonstration continues 
to provide specific detection and analysis capabilities to address the 
need for biosurveillance on the Korean Peninsula. These kinds of 
priority efforts do not distract us from the CBDP's core priorities, 
particularly with respect to equipping the force and preventing 
technological surprise. Rather, I am confident that ongoing and recent 
contingency response activities can inform and improve our programs of 
record and foster innovative approaches within the Defense Acquisition 
Management System to achieving results for the warfighter.
    Mr. Wilson. In your view, are Department of Defense resources 
appropriately allocated according the relative risks of chemical, 
biological, and nuclear threats? If not, what would you change?
    Mr. Bryce. In a time of budget constraint, I believe DOD's limited 
resources are appropriately allocated according to the relative risks 
of chemical, biological, and nuclear threats. The CBDP is accommodating 
the highest priorities of the Military Departments.
    Mr. Wilson. Given the emphasis placed on non-traditional agents by 
the Chem Bio Defense Program, how prepared are we to deal with new 
threats? Are our existing capabilities agile enough to rapidly adapt to 
deal with agents that have been previously unseen?
    Mr. Bryce. I believe we are as well-postured as possible for the 
highest non-traditional agent (NTA) threats, given the dynamic nature 
of the challenge. The Chemical and Biological Defense Program (CBDP) 
has accelerated NTA scientific understanding and rapidly fielded 
interim capabilities, while working on enduring materiel solutions 
based on Joint Service requirements. The Joint Program Executive Office 
for Chemical and Biological Defense (JPEO-CBD), in coordination with 
the Defense Threat Reduction Agency's Joint Science and Technology 
Office for Chemical and Biological Defense (JSTO-CBD), is developing 
capabilities to counter NTAs through an integrated portfolio process, 
focusing on the enabling science and technology, test and evaluation, 
and advanced development of detection, medical, decontamination, and 
individual protection products and systems. The JPEO-CBD collaborates 
with the other components of the CBDP, the Intelligence Community, and 
industry to maintain a high level of acquisition readiness for this 
challenge. The JPEO-CBD assesses the portfolio of fielded equipment and 
promising commercially available items for effectiveness against NTAs. 
A continuing emphasis is placed on identifying technologies that can be 
easily adapted to new and emerging threats. This work enables us to 
assess and field improved capability rapidly and to make 
recommendations for adjustments to existing Tactics, Techniques, and 
Procedures (TTPs) to minimize the impact on our forces of a previously 
unaddressed threat. For example, several of the upgrades that are 
currently being fielded are simply expanded data libraries within 
fielded detection equipment, providing enhanced capability with minimal 
disruption to operating procedures. A classified setting would be 
appropriate for a more detailed discussion regarding specific NTA 
threats.
    Mr. Wilson. How effective are we at providing our troops with the 
most modern protective equipment for Chemical, Biological, Radiological 
and Nuclear (CBRN) threats? How much feedback to we get from the 
services on their capability gaps, and how easy is it for us to respond 
quickly to fill those gaps?
    Mr. Bryce. The Chemical and Biological Defense Program (CBDP) has 
been very effective in providing the protective equipment necessary for 
the warfighter to survive, fight, and win in chemically or biologically 
contaminated environments. Service input into the CBDP Research, 
Development, Test, and Evaluation (RDT&E) planning and programming 
process is critical to our effectiveness. Regarding planning, the 
Military Departments provide input in the development of CBDP planning 
documents, which outline near-, mid-, and far-term objectives of RDT&E 
efforts. The Military Departments are active participants in the 
conduct of operational risk assessments that help to identify 
capability gaps, while input is solicited from them on their priority 
needs. With respect to programming, the Military Departments remain 
actively engaged throughout the development of the Program Objective 
Memorandum (POM). All Military Departments review and endorse the POM 
through the Joint Capabilities Board and the Joint Requirements 
Oversight Council (JROC). The JROC-endorsed POM is provided to the 
Army, as Executive Agent for the CBDP, for the final review and 
approval recommendation. Prior to approval by the Under Secretary of 
Defense for Acquisition, Technology, and Logistics, the POM is vetted 
by the CBDP Overarching Integrated Product Team, which includes 
membership from the Military Departments.
    Recent experience with the combatant commands includes several 
examples of responding quickly to fill capability gaps reflected in 
urgent operational needs (UONs) such as joint urgent operational needs 
(JUONs) and joint emergent operational needs (JEONs). To support the 
DOD response to the Ebola outbreak, a U.S. Transportation Command 
(USTRANSCOM) JEON called for a fielded and sustained capability to 
conduct aeromedical evacuation of multiple personnel, including exposed 
but asymptomatic, infected, and symptomatic patients. In response, the 
CBDP developed the Transport Isolation System (TIS) to close this DOD 
mission-critical gap. Meanwhile, a U.S. Africa Command (USAFRICOM) JUON 
called for a fielded and sustained capability to recover, package, 
transport, and complete final disposition for Ebola contaminated human 
remains (E-CHR) safely. In response, the CBDP developed the E-CHR 
System, which provides a capability to transport E-CHR.
    Mr. Wilson. How do we prioritize which capability gaps we address, 
and in what order? Do we have adequate resources to fill those gaps?
    Mr. Bryce. The DOD Chemical and Biological Defense Program (CBDP) 
uses a holistic capability-based, threat-informed approach when 
identifying and prioritizing capability gaps. The Military Departments, 
through the Joint Requirements Office for Chemical, Biological, 
Radiological, and Nuclear Defense (JRO-CBRND), inform the CBDP 
leadership of high and significant risk capability gaps through an 
Integrated Risk Assessment report that informs the development of 
guidance for the allocation of resources. This JRO-CBRND assessment is 
built upon the Chairman of the Joint Chiefs of Staff (CJCS) risk 
assessment methodology and explains risk to the force and to mission 
accomplishment. It mirrors the Chairman's risk assessment metrics used 
in his Risk Assessment Report to Congress, provided annually. The 
Integrated Risk Assessment report concludes with portfolio risk 
mitigation package recommendations. These risk mitigation packages 
combine capabilities from the 18 CBRN defense core capability areas to 
provide the CBDP leadership with viable and flexible courses of action 
to consider in guiding investment. With respect to the Fiscal Years 
2016-2020 Program Objective Memorandum (POM) process, all of the 
Military Departments concurred in the CBDP POM recommendation. The 
Military Departments remain concerned about future reductions in 
funding levels but believe the POM adequately addresses their highest 
priority needs.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. FRANKS
    Mr. Franks. Can you talk about the threats being posed to our 
troops by non-traditional agents (NTAs); that is, emerging and novel 
chemical technologies and agents that we may not be able to protect 
ourselves from. How are we making sure we fully understand these 
technologies and threats? How do we make sure we are developing 
adequate defensive capabilities? What threats exist to our homeland and 
can our domestic response capabilities handle NTAs? I understand that 
the Department recently put in place a strategy to synchronize non-
traditional agents (NTA) defenses; can you please provide a copy of 
this strategy to the committee and summarize it for us now?
    Mr. Rosenbach. My office is concerned about the threats posed by 
non-traditional agents (NTAs), both to the Homeland and globally. DOD's 
Strategy for Countering Weapons of Mass Destruction (CWMD) provides the 
overarching guidance to address this threat, complemented by the 
Chemical and Biological Defense Program's (CBDP) NTA Research, 
Development, Test and Evaluation (RDT&E) Strategy that directs specific 
NTA defense planning and programming actions. My colleagues in the 
Office of the Under Secretary of Defense for Acquisition, Technology, 
and Logistics (OUSD AT&L) are the authors of the NTA RDT&E Strategy and 
can provide you a copy. Additionally, DOD continues to work with our 
interagency partners to address the threat posed by emerging or novel 
chemical agents.
    Mr. Franks. Three years ago, according to the Government 
Accountability Office, the Department shifted its chemical, biological, 
radiological, and nuclear response enterprise to eliminate the high-
yield explosive element. This is reflected in the structure of the 
domestic response units the Department has been developing. Can you 
provide us with more detail on this and the justification for the 
change? Does this introduce a gap in the Department's ability to assist 
civil authorities in countering domestic improvised explosive devices 
(IEDs) for example, if there is a Mumbai-style attack on the homeland 
that includes multiple IEDs that could overwhelm State and local 
response capabilities? What mechanisms are in place for the Department 
to share its counter-IED expertise with Federal partners?
    Mr. Rosenbach. More than five years ago, the Department of 
Defense's (DOD's) chemical, biological, radiological, and nuclear 
(CBRN) response enterprise was known as the ``chemical, biological, 
radiological, nuclear, and high-yield explosives (CBRNE) response 
enterprise.'' However, as the DOD CBRNE response enterprise included no 
``high-yield explosives element'' (and the addition of such an element 
was not planned), the name of the enterprise was eventually shifted to 
the more accurate ``CBRN Response Enterprise.''
    The CBRN Response Enterprise is specially designed to assist civil 
authorities in saving and sustaining lives in response to the unique 
threat of a catastrophic CBRN incident. DOD's specialized forces and 
capabilities to deal with CBRN contaminants are unique in the Federal 
Government and are, therefore, critical to any effective response. A 
response to a high-yield explosive incident does not require the same 
specialized forces and capabilities and DOD's capabilities in this area 
are not all unique in the Federal Government. Other units and 
capabilities within DOD are available to assist civil authorities in 
countering the threat of domestic IEDs, consistent with the law and 
Presidential Policy Directive 17, Countering Improvised Explosive 
Devices. These include Army, Navy, Marine Corps, and Air Force 
explosive ordnance disposal units (which, based on increased demand, 
grew by almost 72 percent from about 3,600 personnel in 2002 to about 
6,200 in 2012). These units are available to provide defense support of 
civil authorities, as requested by a lead federal agency and approved 
by the Secretary of Defense.
    Mr. Franks. Can you outline for the committee how you interface 
with each of the combatant commands--and in particular, U.S. Northern 
Command, and U.S. Pacific Command. For your work with U.S. Northern 
Command, how do you train and synchronize our domestic response 
efforts, what shortfalls exist, and what challenges are there? For your 
work with U.S. Pacific Command, how do you prepare for contingency 
operations that may involve weapons of mass destruction as a 
centerpiece, such as a conflict on the Korean Peninsula, or worse, the 
collapse of the North Korean regime that possesses a considerable 
arsenal of weapons of mass destruction? How are we ensuring that we 
have the right capabilities to deal with these large-scale, and 
potentially catastrophic events?
    Mr. Rosenbach. I develop and oversee Department of Defense (DOD) 
policies, advise the Under Secretary of Defense for Policy and the 
Secretary of Defense, and work with the Chairman of the Joint Chiefs of 
Staff and the Combatant Commanders on homeland defense (HD), defense 
support of civil authorities (DSCA), cyberspace, space, and countering 
weapons of mass destruction (WMD) matters. For example, I work closely 
with the Commander, U.S. Strategic Command (USSTRATCOM), on countering 
WMD matters, with the Commander, U.S. Cyber Command (USCYBERCOM), on 
cyberspace matters, and with the Commanders of U.S. Northern Command 
(USNORTHCOM) and U.S. Pacific Command (USPACOM) on HD and DSCA matters.
    Ensuring DOD is prepared to meet this demand to save and protect 
lives is one of my highest priorities. To this end, I develop and 
oversee implementation of DSCA policies and strategic guidance; I work 
with the Combatant Commanders on their DSCA operational plans, 
training, and exercises; and I advise the Secretary of Defense on how 
to improve DOD's posture for supporting civil authorities in responses 
to catastrophic disasters, including those involving weapons of mass 
destruction.
    Challenges continue to drive DOD to pursue improvements to its 
ability to harness resources rapidly and effectively to respond quickly 
to civil support requests in the homeland. For example, since 
Superstorm Sandy in 2012, DOD has worked with its Federal partners to 
explore how best to expedite the interagency requirements generation 
process. The formal requirements generation process, whereby civilian 
authorities identify and produce valid requirements for DOD action, can 
be slow--sometimes taking days or weeks. Contingency planning, pre-
scripted mission assignments, and other measures can help expedite this 
process.
    Our Countering WMD (CWMD) efforts center on preparing and posturing 
our military to address future challenges that may emerge and escalate 
quickly, and our focus on the U.S. Pacific Command and our partnership 
with the Republic of Korea military forces also remain a priority. We 
have maintained an increased tempo of training and exercises, such as 
Able Response, KEY RESOLVE, and ULCHI FOCUS GUARDIAN, which include 
CWMD focus areas that enhance the readiness of U.S. and Korean 
personnel. Additionally, we continue to reinforce our partnership and 
alliance through a variety of CWMD coordination and synchronization 
events, such as the Counter Proliferation Working Group, which includes 
both international partners and U.S. interagency experts. This forum is 
a venue within which we reinforce deterrence and improve capabilities 
on the Korean Peninsula to counteract an increasingly dangerous and 
provocative North Korea. We can provide a more detailed description of 
our contingency planning efforts and capabilities in the USPACOM Area 
of Operations in a classified setting.
    Mr. Franks. Can you talk about the threats being posed to our 
troops by non-traditional agents (NTAs); that is, emerging and novel 
chemical technologies and agents that we may not be able to protect 
ourselves from. How are we making sure we fully understand these 
technologies and threats? How do we make sure we are developing 
adequate defensive capabilities? What threats exist to our homeland and 
can our domestic response capabilities handle NTAs? I understand that 
the Department recently put in place a strategy to synchronize non-
traditional agents (NTA) defenses; can you please provide a copy of 
this strategy to the committee and summarize it for us now?
    Dr. Hassell. To mitigate the threat of non-traditional agents, DOD 
has done the following: 1) rapidly fielded defensive capabilities to 
units who are most likely to encounter NTA threats; 2) prioritized 
agent research and development efforts for the most dangerous and most 
likely agents to be employed against our forces; and 3) ensured 
operational risk and validated threat assessments inform defense 
capability development. DOD participates in numerous Interagency forums 
to ensure nesting of priorities, lessons learned, and policy. Units who 
received the rapid fielding initiatives include DOD first responders 
who provide defense support to support civil authorities.
    I will provide the recently published Chemical and Biological 
Defense Program Non-Traditional Agent Defense Research, Development, 
Test and Evaluation (RDT&E) Strategy Fiscal Year 2015 to 2021 for more 
information on Departmental efforts in the areas of detection, medical 
countermeasures, decontamination, and protection as it applies to NTA 
defense.
    Mr. Franks. Can you talk about the threats being posed to our 
troops by non-traditional agents (NTAs); that is, emerging and novel 
chemical technologies and agents that we may not be able to protect 
ourselves from. How are we making sure we fully understand these 
technologies and threats? How do we make sure we are developing 
adequate defensive capabilities? What threats exist to our homeland and 
can our domestic response capabilities handle NTAs? I understand that 
the Department recently put in place a strategy to synchronize non-
traditional agents (NTA) defenses; can you please provide a copy of 
this strategy to the committee and summarize it for us now?
    Mr. Burnham. Advances in technology have lowered barriers to 
acquire WMD and opened the door for a range of non-traditional agents 
to be used as weapons against the United States and our forces. We 
believe that the Cooperative Threat Reduction Program must continue to 
be proactive to understand new emerging threats and must remain 
flexible to be able to address them. My colleagues from the Chemical 
and Biological Defense Program have developed the NTA Research, 
Development, Test, and Evaluation Strategy, I will defer to them to 
provide a more detailed answer to your request.
    Mr. Franks. Can you talk about the threats being posed to our 
troops by non-traditional agents (NTAs); that is, emerging and novel 
chemical technologies and agents that we may not be able to protect 
ourselves from. How are we making sure we fully understand these 
technologies and threats? How do we make sure we are developing 
adequate defensive capabilities? What threats exist to our homeland and 
can our domestic response capabilities handle NTAs? I understand that 
the Department recently put in place a strategy to synchronize non-
traditional agents (NTA) defenses; can you please provide a copy of 
this strategy to the committee and summarize it for us now?
    Mr. Myers. DTRA maintains a robust Threat Agent Science program 
which provides critical properties for chemical and biological agents, 
including NTAs, required to inform CONOPs, Therapeutic Product Profiles 
(TPP) and countermeasure development. The team managing this effort 
works with the interagency to prioritize threats for assessment. 
Characterization includes determining physicochemical properties, agent 
fate on/in operational surfaces/environments, estimating toxicity (for 
the safety of warfighter and the lab worker), and other characteristics 
necessary to understand both the threat agent and countermeasure 
performance. Data is shared across relevant stakeholders to use in 
their programs as needed and incorporated into hazard prediction 
models. The program is also ``preparing for surprise'' through the 
development of tools to improve forecasting of threat agents or 
emerging technologies. This enables novel threat development so that we 
can establish thresholds to inform investment strategies on emerging 
threats, which may not always require new defensive capabilities.
    Mr. Franks. Three years ago, according to the Government 
Accountability Office, the Department shifted its chemical, biological, 
radiological, and nuclear response enterprise to eliminate the high-
yield explosive element. This is reflected in the structure of the 
domestic response units the Department has been developing. Can you 
provide us with more detail on this and the justification for the 
change? Does this introduce a gap in the Department's ability to assist 
civil authorities in countering domestic improvised explosive devices 
(IEDs) for example, if there is a Mumbai-style attack on the homeland 
that includes multiple IEDs that could overwhelm State and local 
response capabilities? What mechanisms are in place for the Department 
to share its counter-IED expertise with Federal partners?
    Mr. Myers. DTRA supports NORTHCOM and collaborates with the 
Department of Homeland Security to develop technologies to address 
threats of mutual concern. These challenges include development of 
technologies for threat detection, hazard prediction, event modeling, 
and decision support. With regard to hazard prediction and decision 
support, DTRA supports military and civil authorities through Technical 
Reachback. DTRA is the operational hub for DHS's Interagency Modeling 
and Atmospheric Assessment Center (IMAAC). DTRA supports equipping and 
training the National Guard Civil Support Teams (CST). For example, the 
DTRA-developed Mobile Field Kit (MFK) software is a sensor integration 
and situational awareness tool originally developed under DTRA's Smart 
Threads Integrated Radiological Sensor Joint Capability Technology 
Demonstration to be used for nuclear-radiological detection. MFK has 
since been demonstrated to integrate inputs from other CBRNE sensors. 
National Guard CSTs have successfully employed MFK with a variety of 
different communications equipment in numerous high-visibility events, 
including the Super Bowl, Pro Bowl, Boston Marathon, and national 
holiday celebrations. We also have a close relationship with the Joint 
Improvised Explosive Device Defeat Organization (JIEDDO). Additional 
information about relevant DTRA S&T programs can be made available in a 
classified forum.
    Mr. Franks. Can you outline for the committee how you interface 
with each of the combatant commands--and in particular, U.S. Northern 
Command, and U.S. Pacific Command. For your work with U.S. Northern 
Command, how do you train and synchronize our domestic response 
efforts, what shortfalls exist, and what challenges are there? For your 
work with U.S. Pacific Command, how do you prepare for contingency 
operations that may involve weapons of mass destruction as a 
centerpiece, such as a conflict on the Korean Peninsula, or worse, the 
collapse of the North Korean regime that possesses a considerable 
arsenal of weapons of mass destruction? How are we ensuring that we 
have the right capabilities to deal with these large-scale, and 
potentially catastrophic events?
    Mr. Myers. We have daily interaction with every Combatant Command 
on a variety of issues, to include CBRN operational, planning and 
research and development efforts. The USSTRATCOM Center for Combating 
WMD synchronizes these efforts across all the Commands to ensure we 
have our ear close to Combatant Command demand signals, We also Liaison 
Officers (LNOs) embedded at each Command.
    Our team works closely with USSNORTHCOM to identify and address 
their priorities, gaps and shortfalls. Our LNOs facilitate 
responsiveness, frequency and level of support for 5 major areas in 
R&D, and approximately 25 exercise and training events. Additionally 
DTRA/SCC-WMD supports USNORTHCOM with Requests for Assistance and 
Requests for Information for both real-world and exercise activities. 
In the recent past, this was something as simple as information to 
mitigate radiation from a stolen medical device in Mexico to assistance 
in training the Medical Support Teams for Homeland Ebola response.
    DTRA has LNO teams at both U.S. Pacific Command (USPACOM) and 
United States Forces Korea (USFK), who facilitate the coordination of 
DTRA and SCC-WMD activities in theater. The LNO teams regularly 
participate in theater exercise planning and execution, and in 
preparation for potential contingency operations. During a crisis 
scenario, these LNO teams are augmented by additional trained, 
deployable staff, who assist in synchronizing CWMD activities and who 
provide expertise in specific DTRA/SCC-WMD activities and programs.
    In addition, DTRA engages all Combatant Commands (CCMDs) through 
the CCMD S&T Manager to address their science and technology needs.
    Mr. Franks. Can you talk about the threats being posed to our 
troops by non-traditional agents (NTAs); that is, emerging and novel 
chemical technologies and agents that we may not be able to protect 
ourselves from. How are we making sure we fully understand these 
technologies and threats? How do we make sure we are developing 
adequate defensive capabilities? What threats exist to our homeland and 
can our domestic response capabilities handle NTAs? I understand that 
the Department recently put in place a strategy to synchronize non-
traditional agents (NTA) defenses; can you please provide a copy of 
this strategy to the committee and summarize it for us now?
    Mr. Bryce. A detailed discussion of the list of threats would 
require a classified response. In general, the proliferation of non-
traditional agent (NTA) capabilities and related information present a 
growing risk to our troops globally but the force does possess some 
defensive capabilities. The Chemical and Biological Defense Program 
(CBDP) has fielded and is continuing to develop equipment that will 
provide a significantly enhanced level of defense against broad 
categories of agents. Additionally, the training our CBRN defense 
forces receive prepares them to address unknown hazards and respond 
accordingly. The CBDP collaborates with partners in the intelligence, 
science, engineering, and medical communities to identify, study, and 
prioritize potential emerging threats and their impact on the 
warfighter. To enable DOD to iteratively assess risk and, when 
appropriate, revise our mitigation approach, emphasis is placed on 
understanding NTA threats in terms of their various physical states, 
weaponized forms, and routes of exposure.
    There are no geographic boundaries for many of the chemical threats 
we may face. Many of the dangers to the deployed force are also hazards 
to the homeland. In an effort to establish a domestic defensive 
capability against NTAs, the Joint Program Executive Office for 
Chemical and Biological Defense (JPEO-CBD) and the Department of 
Homeland Security have adopted a collaborative approach toward 
developing capability sets. We have provided NTA detection, protection, 
and decontamination capabilities to the 57 National Guard Bureau 
Weapons of Mass Destruction Civil Support Teams (WMD-CSTs) located 
across the United States. Fielding of the Domestic Response Capability 
(DRC) Kits began in July 2012 and was completed in March 2014. 
Currently, the JPEO-CBD is providing an expanded data library within a 
fielded identification system, giving the WMD-CSTs an improved 
analytical, field confirmatory capability.
    The CBDP Non-Traditional Agent (NTA) Defense Research, Development, 
Test, and Evaluation Strategy requires the synchronization of DOD NTA 
defense efforts for fiscal years 2015-2021 to enable the warfighter to 
counter NTAs as part of a layered and integrated defense. 
Implementation of the Strategy will ensure that the CBDP is well 
postured to meet existing and future NTA defense requirements. The 
Strategy provides a prioritization scheme for the multiple NTA classes, 
while at the same time acknowledging fiscal realities and the need to 
continue developing and delivering capability to address traditional 
chemical threats. The Strategy establishes an approach for the 
development of enduring defense solutions and recognizes accelerated or 
interim solutions may be necessary based on risk assessments. A copy of 
the Strategy will be provided to the Committee.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. HUNTER
    Mr. Hunter. Dr. Hassell, RSDL was selected by DOD as the 
replacement for the M-291 carbon powder personnel decon kit in 2007. 
The Joint Program Executive Office Chemical and Biological Defense 
initially provided each branch of the U.S. Armed Forces with a 
sufficient quantity of RSDL to meet their Total Service Requirement 
(TSR). Thereafter, each service was required to replenish their 
inventories of RSDL (the product has a 5-year shelf-life). I am 
concerned that the Navy has not replenished its inventory of RSDL--
allowing a significant portion of its kits to expire or not be replaced 
after being issued to end users. Last July, the Navy indicated to 
another congressional committee looking into this issue that it does 
not intend to replenish any of its RSDL in fiscal years 2015 and 2016. 
This will result in more of the Navy's RSDL kits passing their 
expiration dates and the service falling even farther below its TSR for 
RSDL. Are you aware of this?
    Dr. Hassell. Yes, it is my understanding that the Navy will not be 
replenishing its stock at this time, rather it will begin procurement 
during Fiscal Year 2017.
    Mr. Hunter. The justification documents submitted with the 
President's Budget Request for FY 2016 indicated plans to ``Initiate 
Personnel Decontamination hazard mitigation projects to develop an 
alternative to RSDL . . .'' Can you briefly describe the effort?
    Mr. Burnham. My understanding from the Joint Program Executive 
Office for Chemical and Biological Defense (JPEO-CBD) is that this 
refers to the Next Generation Personnel Decontamination (NGPDC) 
program, which is intended to provide a broad spectrum chemical and 
biological skin decontamination capability with low logistics footprint 
(e.g., shelf life and storage conditions) and reduced cost in 
comparison to the currently fielded skin decontaminant, Reactive Skin 
Decontamination Lotion (RSDL). I understand that a primary objective of 
the program is to address concerns identified by the Military Services 
regarding the storage requirements (climate control) for and shelf life 
of RSDL. Included in the Fiscal Year 2016 DOD Budget Request, NGPDC is 
currently projected to achieve Milestone A and enter the Technology 
Maturation and Risk Reduction Phase of the Defense Acquisition 
Management System in fiscal year 2020.
    Mr. Hunter. RSDL is the most effective means of removing and 
neutralizing Chemical Warfare Agents, T-2 toxin, and many pesticide-
related chemicals, including organophosphates from the skin. Are you 
aware of any other products that would provide our troops with a 
greater level of protection if they were exposed to Chemical Warfare 
Agents and organophosphate chemicals?
    Mr. Bryce. I am not aware of any other FDA-cleared products at this 
time. However, to address concerns identified by the Military 
Departments regarding the storage requirements for and shelf-life of 
Reactive Skin Decontamination Lotion (RSDL), we are pursuing the Next 
Generation Personnel Decontamination program to provide a broad-
spectrum chemical and biological skin decontamination capability with a 
lower logistics footprint and reduced cost.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. ASHFORD
    Mr. Ashford. Is it possible that filoviruses (Ebola) could be used 
as a bioweapon? What plans have been made for dealing with Ebola virus 
should it be used as a bioweapon and what type of research activities 
is DTRA conducting with the university affiliated research center for 
medical countermeasures?
    Mr. Rosenbach. We know it is possible for a wide variety of 
bacteria and viruses, including the Ebola virus, to be used as a 
bioweapon. The challenge is accurately quantifying the risk, including 
probability and effects, of such an event.
    The Administration has provided guidance that Federal departments 
and agencies should conduct planning to address the impacts of pandemic 
influenza on the Federal workforce. DOD has further extended that 
guidance through development and implementation of our Global Campaign 
Plan for Pandemic Influenza and Infectious Disease. This plan provides 
base guidance to Geographic and Functional Combatant Commands to 
develop plans to address force health protection and provision of 
assistance to either domestic or international partners during events 
of pandemic influenza or other high-impact diseases such as Ebola 
within their areas of responsibility.
    In addition, DOD participated in interagency planning efforts led 
by FEMA to develop an Ebola specific crisis action plan. The U.S. 
Government--including DOD--undertook concerted efforts to ensure the 
U.S. public health system, as well as selected elements of the DOD 
health system, are capable of treating Ebola patients. This approach to 
the domestic response to save lives is the same whether the biological 
event is intentional or natural.
    I want to emphasize, however, that both preparedness for, and 
response to, biological threats, no matter the agent, must be conducted 
through partnership among government and civilian sectors. This 
approach holds true for all hazards, and is reflected in strategic 
documents and initiatives such as the National Response Framework, the 
Global Health Security Agenda, and the World Health Organization's 
International Health Regulations.
    DOD is just one partner in strengthening prevention, preparedness, 
and response, and in most cases we are in a support role. Therefore, 
investments must be made across all sectors of our government, not only 
for preparation and response in the homeland, but also to help build 
capacity internationally. These investments must be long-term 
commitments as the threat landscape continuously changes.
    Mr. Ashford. How effective are our methods for detecting potential 
exposure of military personnel in the field to chemical, biological, 
and radiological agents? You have described for us the EZ-1 test for 
Ebolavirus; how long does it take for the EZ-1 test to provide a result 
of positive or negative? Are there DTRA funded efforts to develop a 
more rapid test?
    Mr. Rosenbach. DOD's chemical, biological, and radiological (CBR) 
response is built upon a strategy of ``layered defense.'' In keeping 
with this strategy, we have multiple layers of detection fielded for 
CBR agents that encompasses detection and diagnostic equipment (such as 
aerosol detection systems and clinical diagnostic assays); information 
(such as medical and environmental biosurveillance systems); doctrine 
and tactics, techniques, and procedures; and trained CBR and medical 
forces. DOD is currently developing updated detection capabilities to 
enhance our ability to detect potential exposure to chemical, 
biological and radiation threats. More detail on this capability, as 
well as the EZ-1 test, is available from the Office of the Deputy 
Assistant Secretary of Defense for Chemical and Biological Defense 
(within the Office of the Under Secretary of Defense for Acquisition, 
Technology and Logistics).
    Mr. Ashford. The DOD has developed a transport module that can be 
used to move up to 6 to 8 infected individuals. What plans and 
contingencies are in place or under consideration for the 
transportation and subsequent treatment of military personnel who are 
infected? DOD officials have said they anticipate infected military 
personnel will be treated at the U.S. facilities who have treated the 
U.S. civilian patients. Which office within the DOD will be 
establishing the agreements with the treating biocontainment unit the 
procedures and protocols to transport and treat military patients 
infected with Ebola or some other highly infectious disease?
    Mr. Rosenbach. The Department has a standing agreement with the 
Department of State (DOS) to support DOD requests for medical 
evacuation (MEDEVAC) assistance from West Africa using Phoenix Aviation 
Group (PAG) on an as-needed and reimbursable basis.
    In addition, DOD has developed, tested, and fielded a mass 
evacuation capability to meet contingency requirements in support of 
Operation UNITED ASSISTANCE. The Transportation Isolation System (TIS) 
is built upon a standard Patient Support Pallet and provides 
biocontainment for a combination of up to four to eight asymptomatic 
patients, including up to eight ambulatory, high-risk contacts or a 
maximum of four infected, litter-bound patients. In January 2015, this 
capability achieved initial operational capability with three systems 
available to deploy, but has not yet been utilized. Twenty-two 
additional systems will be procured by DOD between April and May 2015. 
The Department views the TIS as a contingency option in the event of 
unavailability of the commercial MEDEVAC service offered through the 
DOS contract and as a capacity gap-filler in the event of a large-scale 
MEDEVAC need.
    The Administration has documented its medical evacuation procedures 
in the United States Medical Evacuation Concept of Operations (MEDEVAC 
CONOPS). This CONOPS identifies that four DOD components have 
responsibilities during a MEDEVAC mission, including the Office of the 
Secretary of Defense, the Joint Staff, U.S. Northern Command, and U.S. 
Transportation Command.
    With respect to the subsequent treatment, should a military member 
become infected, that member would be treated at one of the U.S. 
civilian biocontainment facilities that have treated the other U.S. 
civilian patients. The Department has developed a contingency capacity 
to care for Ebola patients in several medical centers within the 
continental United States, including Walter Reed National Military 
Medical Center. However, it is the Department's intent to continue to 
leverage the collective experience and expertise of the three civilian 
Ebola treatment centers unless that resource becomes overburdened.
    Mr. Ashford. DTRA leadership has indicated in previous testimony 
that there are not enough scientists with expertise in CBRN 
technologies to staff all the services and commands and that DTRA 
currently addresses this gap by providing its expertise in a 
coordinated manner to all services. What measures are being taken to 
provide a well-trained workforce to address this gap in the future and 
at the same time not train future bioterrorists such as Aafia Siddiqui?
    Mr. Rosenbach. Maintaining sufficient technical expertise is a 
foundational activity in our 2014 Strategy for Countering Weapons of 
Mass Destruction (CWMD) as we and our interagency and international 
partners rely on the intellectual capital provided by the Department's 
cadre of CWMD experts, both military and civilian. In the context of 
constrained budgets, we will continue to be challenged to recruit and 
develop the numbers of experts that we need. However, components such 
as the Defense Threat Reduction Agency (DTRA) have developed creative 
ways to provide chemical, biological, radiological, and nuclear (CBRN) 
support, such as through its technical reach-back capability.
    One example of precautions we take to prevent insider threat risk, 
consistent with U.S. Select Agent Regulations, is that we require that 
anyone who works with Biological Select Agents and Toxins (BSAT) must 
be enrolled in a Biological Personnel Reliability Program (BPRP). The 
program provides for a comprehensive review of each individual given 
access to BSAT, be they U.S. citizens or foreigners, and includes 
assessments such as background security checks, medical reviews for 
mental and physical competence, and personnel records. As we are 
continuously monitoring the threat landscape, my staff will continue to 
participate in periodic U.S. interagency reviews of the adequacy of 
personnel reliability and other biosecurity processes.
    Mr. Ashford. Is it possible that filoviruses (Ebola) could be used 
as a bioweapon? What plans have been made for dealing with Ebola virus 
should it be used as a bioweapon and what type of research activities 
is DTRA conducting with the university affiliated research center for 
medical countermeasures?
    Dr. Hassell. We know that the Japanese cult, Aum Shinrikyo, 
attempted to obtain the Ebola virus as part of its biological warfare 
program, although fortunately they failed in their attempt. Adversaries 
could intentionally acquire the disease during an outbreak and, similar 
to suicide bombers, deliberately spread Ebola to as many people as 
possible before succumbing themselves. For these reasons, filoviruses 
remain a priority on our medical countermeasures (MCMs) list.
    We continue to work to develop MCMs and diagnostic technologies 
against filoviruses. The Chemical and Biological Defense Program (CBDP) 
is working with the Centers for Disease Control and Prevention and 
National Institutes of Health to conduct clinical trials on CBDP-
developed Ebola vaccines and therapeutics. We are studying rapid, 
point-of-care diagnostic technologies that would allow us to diagnose 
Ebola faster than the currently available assays, as well as 
technologies with the potential to tell whether patients were naturally 
or intentionally infected.
    Mr. Ashford. How effective are our methods for detecting potential 
exposure of military personnel in the field to chemical, biological, 
and radiological agents? You have described for us the EZ-1 test for 
Ebolavirus; how long does it take for the EZ-1 test to provide a result 
of positive or negative? Are there DTRA funded efforts to develop a 
more rapid test?
    Dr. Hassell. The Joint Requirements Office Capability gaps 
assessment highlighted several gaps in our current methods for 
detecting potential exposure of military personnel in the field to 
chemical, biological, and radiological agents. These gaps are being 
addressed in the Next Generation Detection System (NGDS), which 
includes additional diagnostic tests for remaining biological pathogens 
and staged development of diagnostic capabilities for toxin, chemical, 
and radiological/nuclear exposures.
    The EZ-1 RT-PCR test takes between 3 and 6 hours, depending on the 
laboratory and the number of samples tested at one time. The Chemical 
and Biological Defense Program (CBDP) has funded efforts to test the 
diagnostic utility of lateral-flow assays. Although lateral-flow assays 
can give quick results, they also have a high rate of false negatives. 
The potential for this type of diagnostic in aiding with triage 
decisions at treatment units is still being explored. Additionally, 
CBDP continues to fund research focusing on the detection and 
identification of chemical and biological threats in near real-time. 
Future programs focus on the improvement of algorithms, excitation 
sources, and detector elements to increase warning time, reduce false 
negatives, increase sensitivity, and reduce cost.
    Mr. Ashford. The DOD has developed a transport module that can be 
used to move up to 6 to 8 infected individuals. What plans and 
contingencies are in place or under consideration for the 
transportation and subsequent treatment of military personnel who are 
infected? DOD officials have said they anticipate infected military 
personnel will be treated at the U.S. facilities who have treated the 
U.S. civilian patients. Which office within the DOD will be 
establishing the agreements with the treating biocontainment unit the 
procedures and protocols to transport and treat military patients 
infected with Ebola or some other highly infectious disease?
    Dr. Hassell. USTRANSCOM is managing all Transportation Isolation 
System (TIS) operational issues and procedures. We continue to support 
them in development and fielding of the TIS.
    Mr. Ashford. DTRA leadership has indicated in previous testimony 
that there are not enough scientists with expertise in CBRN 
technologies to staff all the services and commands and that DTRA 
currently addresses this gap by providing its expertise in a 
coordinated manner to all services. What measures are being taken to 
provide a well-trained workforce to address this gap in the future and 
at the same time not train future bioterrorists such as Aafia Siddiqui?
    Dr. Hassell. DTRA and the Joint Program Executive Office for 
Chemical and Biological Defense both have programs to develop the next 
generation of scientists with expertise in CBRN technologies. In doing 
this, individuals and organizations conducting research on behalf of 
the CBDP are required to follow all Departmental and Federal 
regulations, such as having robust Personnel Reliability Programs for 
individuals working with Biological Select Agents and Toxins (BSAT). 
While working with BSAT is important to identify and fill capability 
gaps in order to protect the warfighter and the public, the DOD ensures 
biological security policy is consistent with Federal Select Agent 
Regulations. We ensure regulatory requirements are balanced with 
important research objectives, and the DOD continues to conduct BSAT 
research in a safe and secure manner to develop protective 
countermeasures critical to national security.
    Mr. Ashford. Is it possible that filoviruses (Ebola) could be used 
as a bioweapon? What plans have been made for dealing with Ebola virus 
should it be used as a bioweapon and what type of research activities 
is DTRA conducting with the university affiliated research center for 
medical countermeasures?
    Mr. Burnham. Yes. Ebola and other filoviruses can be developed into 
bioweapons.
    This could be done a variety of ways but as an example, someone 
intentionally infecting himself is just one very low-tech way to 
``weaponize'' the Ebola virus or other filoviruses. An infected 
individual can take several days or longer to develop symptoms after 
infection, so it is plausible that the infected individual could travel 
to other parts of the world before they showed symptoms of infection. 
An outbreak of Ebola virus or another filovirus could be an opportunity 
for someone seeking to intentionally infect himself.
    The Ebola outbreak in West Africa was a naturally occurring 
outbreak, and as we saw, travel of infected people back to their home 
nations constituted a significant security threat. That is why 
preparedness for outbreaks for pathogens of security concern--whether 
intentionally spread, accidentally released from a lab, or naturally 
occurring--is important.
    Response to an intentional release of Ebola virus would be very 
similar to the response to a naturally occurring outbreak. In both 
cases, early detection of the outbreak coupled with an appropriate 
response is critical to mitigating the effects. The Cooperative Threat 
Reduction Program's Cooperative Biological Engagement Program works 
with foreign partners to enhance their disease detection capabilities, 
so that when outbreaks of pathogens of security concern occur, like the 
recent Ebola outbreak in West Africa, our partners can react quickly to 
contain the outbreak before it can spread to the United States.
    My colleagues on the panel from the Defense Threat Reduction Agency 
and from the Chemical and Biological Defense Program can provide 
information on our research and medical countermeasure efforts related 
to Ebola and other filoviruses.
    Mr. Ashford. How effective are our methods for detecting potential 
exposure of military personnel in the field to chemical, biological, 
and radiological agents? You have described for us the EZ-1 test for 
Ebolavirus; how long does it take for the EZ-1 test to provide a result 
of positive or negative? Are there DTRA funded efforts to develop a 
more rapid test?
    Mr. Burnham. My colleagues in the Chemical and Biological Defense 
Program lead the development of a range of detectors and medical 
countermeasures, including the EZ-1 test. They can provide the specific 
information you're requesting.
    Mr. Ashford. The DOD has developed a transport module that can be 
used to move up to 6 to 8 infected individuals. What plans and 
contingencies are in place or under consideration for the 
transportation and subsequent treatment of military personnel who are 
infected? DOD officials have said they anticipate infected military 
personnel will be treated at the U.S. facilities who have treated the 
U.S. civilian patients. Which office within the DOD will be 
establishing the agreements with the treating biocontainment unit the 
procedures and protocols to transport and treat military patients 
infected with Ebola or some other highly infectious disease?
    Mr. Burnham. The DOD has an agreement with the Department of State 
to provide medical evacuation (MEDEVAC) services as needed for military 
personnel. The Chemical and Biological Defense Program led the 
development of the Transport Isolation System (TIS). This system is 
viewed as a contingency supplement to these MEDEVAC services in the 
event of a large-scale MEDEVAC need. My colleagues on the panel from 
the Chemical and Biological Defense Program and the Defense Threat 
Reduction Agency will provide more specifics on the capabilities of the 
TIS.
    The Office of the Secretary of Defense, the Joint Staff, 
USNORTHCOM, and USTRANSCOM are responsible for developing agreements, 
protocols, and procedures related to MEDEVAC for the DOD as outlined in 
the United States Medical Evacuation Concept of Operations.
    Mr. Ashford. DTRA leadership has indicated in previous testimony 
that there are not enough scientists with expertise in CBRN 
technologies to staff all the services and commands and that DTRA 
currently addresses this gap by providing its expertise in a 
coordinated manner to all services. What measures are being taken to 
provide a well-trained workforce to address this gap in the future and 
at the same time not train future bioterrorists such as Aafia Siddiqui?
    Mr. Burnham. We recognize the need to have access to scientific 
expertise to address technical issues related to CBRN technologies. My 
office has addressed this challenge by actively recruiting U.S. 
scientists with backgrounds in the physical and biological sciences and 
interest in counter proliferation/counter WMD issues to provide 
technical advice on CBRN technologies.
    One of the original goals of the Cooperative Threat Reduction 
Program was to redirect Soviet weapons scientists to peaceful purposes 
after the collapse of the Soviet Union. In part because of these 
efforts, there are fewer weapons scientists today. Our biological 
threat reduction program, the Cooperative Biological Engagement Program 
(CBEP), continues to work with foreign scientists. We train them to 
help improve their nations' disease detection capabilities, so that 
outbreaks of pathogens of security concern can be contained before they 
spread. As part of this work, CBEP reinforces a culture of safety and 
responsibility in the conduct of life science research. We also support 
the integration of foreign scientists into the global research 
community where their work is subject to peer review from the 
international scientific community.
    Mr. Ashford. Is it possible that filoviruses (Ebola) could be used 
as a bioweapon? What plans have been made for dealing with Ebola virus 
should it be used as a bioweapon and what type of research activities 
is DTRA conducting with the university affiliated research center for 
medical countermeasures?
    Mr. Myers. Ebola is recognized by the U.S. government as a 
potential biological warfare agent. It is a Tier 1 agent on the Center 
for Disease Control's Select Agent List and it is a threat as a BW 
agent to U.S. forces. Studies show that filoviruses can be easily 
disseminated or transmitted from person to person; result in high 
mortality rates and have the potential for major public health impact; 
and might cause public panic and social disruption. All of these 
factors make filoviruses appealing to threat actors. In response to 
this threat, and the threat of naturally occurring filoviruses, DTRA 
continues to research effective therapeutics and vaccines to protect 
U.S. military members against a biological warfare attack involving 
Ebola as a threat agent.
    Mr. Ashford. The DOD has developed a transport module that can be 
used to move up to 6 to 8 infected individuals. What plans and 
contingencies are in place or under consideration for the 
transportation and subsequent treatment of military personnel who are 
infected? DOD officials have said they anticipate infected military 
personnel will be treated at the U.S. facilities who have treated the 
U.S. civilian patients. Which office within the DOD will be 
establishing the agreements with the treating biocontainment unit the 
procedures and protocols to transport and treat military patients 
infected with Ebola or some other highly infectious disease?
    Mr. Myers. DTRA developed and tested the Transportation Isolation 
System prototype systems and the Joint Program Execution Office (JPEO) 
procured and delivered the first 3 systems to USTRANSCOM during January 
of 2015. USTRANSCOM is managing all Transportation Isolation System 
operational issues and procedures for DOD. Responsibility for 
coordinating transportation and treatment of infected patients falls to 
the Departments of State, Health and Human Services, and the Centers 
for Disease Control and Prevention.
    Mr. Ashford. DTRA leadership has indicated in previous testimony 
that there are not enough scientists with expertise in CBRN 
technologies to staff all the services and commands and that DTRA 
currently addresses this gap by providing its expertise in a 
coordinated manner to all services. What measures are being taken to 
provide a well-trained workforce to address this gap in the future and 
at the same time not train future bioterrorists such as Aafia Siddiqui?
    Mr. Myers. DTRA's Nuclear Science and Engineering Research Center 
(NSERC) partners the Agency with DOD degree-granting institutions and 
labs in order introduce future military leaders and CBRN experts to 
current C-WMD problems. Current NSERC outreach efforts span multiple 
technical and non-technical disciplines including nuclear engineering, 
chemical and biological technologies, network sciences, systems 
engineering, and defense strategic studies. All research topics are 
continually refined to remain relevant to DTRA research objectives, and 
all performers are thoroughly vetted by their parent organizations 
prior to receiving fiscal support.
    DTRA executes a basic research program, primarily through 
university engagement. One of this program's two primary goals is to 
promote the development of the next generation science and technology 
workforce for countering WMD. As such, DTRA provides opportunities for 
and engages with students by supporting basic research grants, 
expanding postdoctoral research, and encouraging joint laboratory-
university basic research. The basic research program has over 160 
active awards supporting more than 200 Principal Investigators (PIs) 
and Co-PIs, and training more than 600 students and post-doctoral 
researchers.
    Additionally DTRA has several other methods to mitigate the skills 
gap. Besides external recruitment of qualified individuals, there are 
internal instructional techniques such as on-the-job training and 
mentoring facilitated by the Science and Technology Functional 
Community. Functional skills-enhancing curriculums are documented in 
Workforce Development Guides. The Science and Technology Guide 
identifies competency-based training and supports the development of 
long-term career roadmaps. Cross training is another method used to 
provide opportunities for junior employees to develop their skills to 
help meet the future needs of the organization.
    Mr. Ashford. Is it possible that filoviruses (Ebola) could be used 
as a bioweapon? What plans have been made for dealing with Ebola virus 
should it be used as a bioweapon and what type of research activities 
is DTRA conducting with the university affiliated research center for 
medical countermeasures?
    Mr. Bryce. Yes, it is conceivable that filoviruses could be used as 
weapons. Filoviruses can be disseminated via aerosols, have a low 
infectious dose, and have high morbidity and mortality rates--all 
important elements for bioweapons. In response to this threat, and the 
threat of naturally occurring filoviruses, the Joint Program Executive 
Office for Chemical and Biological Defense (JPEO-CBD) is pursuing 
development of a filovirus vaccine. The intent is to field an FDA-
licensed trivalent human vaccine to protect the warfighter against 
aerosolized exposure to the Ebola Zaire, Ebola Sudan, and Marburg 
hemorrhagic fever viruses. The objective end-product would protect 
against all three viruses in a single vaccine formulation and would 
protect against both the bioweapon and the naturally occurring threat. 
For Fiscal Year 2016, the JPEO-CBD is requesting an investment of $37M 
to complete non-clinical efficacy studies and pilot scale production, 
as well as to continue Phase I clinical trials for competitive 
prototypes. DTRA's Joint Science and Technology Office for Chemical and 
Biological Defense (JSTO-CBD) has contributed to this effort by 
transitioning several potential vaccine technology approaches against 
filoviruses to the JPEO-CBD in Fiscal Year 2014.
    The JPEO-CBD leverages the University Affiliated Research Centers 
(UARC), U.S. Government laboratories, and industry for the development 
of medical countermeasures. JPEO-CBD has leveraged the formulation 
expertise at one of the UARCs at the University of Nebraska for 
filovirus vaccine development efforts. With respect to overall plans 
for dealing with Ebola virus should it be used as a bioweapon, I will 
defer to Mr. Eric Rosenbach, Assistant Secretary of Defense, Homeland 
Defense and Global Security.
    Mr. Ashford. How effective are our methods for detecting potential 
exposure of military personnel in the field to chemical, biological, 
and radiological agents? You have described for us the EZ-1 test for 
Ebolavirus; how long does it take for the EZ-1 test to provide a result 
of positive or negative? Are there DTRA funded efforts to develop a 
more rapid test?
    Mr. Bryce. It is important to distinguish capabilities that detect 
agents in the environment from capabilities that diagnose diseases in a 
medical setting. Environmental detection affects force protection and 
offers the opportunity to put on individual protection (suits, boots, 
masks, and gloves) or to avoid exposures entirely. If exposures cannot 
be avoided, medical countermeasures, including vaccines, pre-
treatments, diagnostics, and therapeutics, offer the next lines of 
defense. Medical diagnostic capabilities are critical for effective 
patient treatment and in containing communicable threats. DOD 
diagnostic tests for chemical, biological, radiological, and nuclear 
(CBRN) threats are subject to the same high standards as commercial 
diagnostic tests developed for routine health care. Once the FDA 
verifies that diagnostic methods are effective and safe, tests become 
``cleared'' for use.
    This practice ensures that the best available diagnostic 
technologies are available to meet DOD's needs. The most recent Ebola 
outbreak illustrates this process. Both the Joint Biological Agent 
Identification and Diagnostic System (JBAIDS) and the Next Generation 
Diagnostics System Increment 1 (NGDS Inc 1) supported the Ebola 
response. The EZ-1 test used to support Operation United Assistance was 
made available through Emergency Use Authorization (EUA) and is 
authorized for EUA use on three high-throughput diagnostic platforms, 
including the fielded JBAIDS system and two commercial platforms 
commonly used at DOD laboratories. Once a sample is taken, the EZ-1 
test takes between 3 and 6 hours, depending on the laboratory and the 
number of samples tested at one time. The assay developed for the NGDS 
Inc 1 (BioThreat-Ebola test), also authorized under an EUA, can return 
results in seventy (70) minutes. The NGDS Inc 1 platform and Ebola test 
kits were made available to support Operation United Assistance under 
an urgent materiel release.
    Finally, there are several efforts funded within the Defense Threat 
Reduction Agency and the Defense Advanced Research Projects Agency 
seeking to ensure a robust developmental pipeline in the areas of 
medical diagnostic capability and environmental detection devices. The 
JPEO-CBD will continue to coordinate with these and other developmental 
efforts.
    Mr. Ashford. The DOD has developed a transport module that can be 
used to move up to 6 to 8 infected individuals. What plans and 
contingencies are in place or under consideration for the 
transportation and subsequent treatment of military personnel who are 
infected? DOD officials have said they anticipate infected military 
personnel will be treated at the U.S. facilities who have treated the 
U.S. civilian patients. Which office within the DOD will be 
establishing the agreements with the treating biocontainment unit the 
procedures and protocols to transport and treat military patients 
infected with Ebola or some other highly infectious disease?
    Mr. Bryce. DOD has an agreement with the Department of State (DOS) 
to support requests for medical evacuation (MEDEVAC) assistance from 
West Africa. If DOS were to become overburdened with requests to fly 
patients to the United States, DOS could request DOD support to 
transport patients. Meanwhile, DOD has developed, tested, and fielded a 
mass evacuation capability to meet contingency requirements in support 
of Operation United Assistance. The Transportation Isolation System 
(TIS) is built upon a standard Patient Support Pallet and provides 
biocontainment for multiple patients. In January 2015, this system 
achieved initial operational capability with three systems available to 
deploy. Additional systems will be procured by DOD during the remainder 
of Fiscal Year 2015.
    The Administration has documented its medical evacuation procedures 
in the United States Medical Evacuation Concept of Operations (MEDEVAC 
CONOPS). This CONOPS identifies that four DOD components have 
responsibilities during a MEDEVAC mission, including the Office of the 
Secretary of Defense, the Joint Staff, U.S. Northern Command, and U.S. 
Transportation Command.
    Were they to become infected, service members would be treated at 
one of the U.S. civilian biocontainment facilities that have treated 
the other U.S. civilian patients. DOD has developed a contingency 
capacity to care for Ebola patients in several medical centers within 
the continental United States, including Walter Reed National Military 
Medical Center. However, it is DOD's intent to continue to leverage the 
collective experience and expertise of the three civilian Ebola 
treatment centers unless those resources become overburdened.
    Mr. Ashford. DTRA leadership has indicated in previous testimony 
that there are not enough scientists with expertise in CBRN 
technologies to staff all the services and commands and that DTRA 
currently addresses this gap by providing its expertise in a 
coordinated manner to all services. What measures are being taken to 
provide a well-trained workforce to address this gap in the future and 
at the same time not train future bioterrorists such as Aafia Siddiqui?
    Mr. Bryce. My organization, the Joint Program Executive Office for 
Chemical and Biological Defense (JPEO-CBD), located on the Edgewood 
Area of Aberdeen Proving Ground (APG), works with our U.S. Army APG 
partners to support science, technology, engineering, and math (STEM) 
events throughout the community. Activities include supporting the 
Aberdeen Proving Ground STEM Exposition, providing mentors for the 
Cecil County STEM Academy, and participating in local science fairs and 
engineering competitions. We support Federal and DOD STEM strategic 
plans by advocating effective approaches for improving STEM teaching 
and learning, and by promoting STEM education experiences that feature 
hands-on learning to generate student engagement and interest in the 
STEM fields.
    With respect to maintaining a well-trained workforce, recruitment 
and retention will likely be more challenging should the fiscal 
uncertainty that has overshadowed DOD operations continue into Fiscal 
Year 2016 and beyond. If sequestration impacts resume in full, 
attracting and keeping the scientists, engineers, and program managers 
we need will likely become more difficult than it already is in the 
competitive human capital environment. The furlough days taken, as well 
as those remaining as possibilities, have impacted morale.
    On a more positive note, the Defense Threat Reduction Agency's 
Joint Science and Technology Office for Chemical and Biological Defense 
(JSTO-CBD) has started a program called ``Scientists in Foxholes'' 
which will familiarize JSTO-CBD personnel with the equipment and 
operating environments encountered by the warfighter. This will help 
the Military Departments to understand the art of the possible and the 
scientists understand the warfighter's mission.
    Regarding the protection of DOD programs from access by dangerous 
or potentially dangerous individuals, I believe the best course of 
action available to DOD is rigorous enforcement of its Personnel 
Reliability Programs such as maintaining strong Biological Personnel 
Reliability Programs, the participation in which is required for 
individuals to work with Biological Select Agents and Toxins (BSAT) for 
DOD. There are numerous requirements for personnel within a Biological 
Personnel Reliability Program, including: a security background 
investigation, drug testing, medical records review, personnel records 
review, a legitimate need for access to material, approval of access to 
BSAT by a certifying official, and good social adjustment.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
